<html>
<title> - THE CONNECTICUT EXPERIENCE: WHAT CAN BE DONE TO SPUR BROWNFIELD REDEVELOPMENT IN THE NEW ENGLAND CORRIDOR?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
    THE CONNECTICUT EXPERIENCE: WHAT CAN BE DONE TO SPUR BROWNFIELD 
               REDEVELOPMENT IN THE NEW ENGLAND CORRIDOR?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON FEDERALISM
                             AND THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2006

                               __________

                           Serial No. 109-163

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-333                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

               Subcommittee on Federalism and the Census

                   MICHAEL R. TURNER, Ohio, Chairman
CHARLES W. DENT, Pennsylvania        WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       PAUL E. KANJORSKI, Pennsylvania
VIRGINIA FOXX, North Carolina        CAROLYN B. MALONEY, New York
------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     John Cuaderes, Staff Director
                       Shannon Weinberg, Counsel
                         Juliana French, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2006...................................     1
Statement of:
    Barton, Elizabeth, chair, Environmental and Land Use 
      Department, Day, Berry & Howard, LLP.......................    57
    Carbone, Joseph, president/CEO, the Workplace, Inc...........    63
    Fabrizi, John, mayor, city of Bridgeport, CT.................    10
    Lauretti, Mark, mayor, city of Shelton, CT...................    35
    McCarthy, Gina, commissioner, Connecticut Department of 
      Environmental Protection...................................    28
    Sanderson, Mary, Chief, Remediation and Restoration II 
      Branch, Office of Site Remediation and Restoration, U.S. 
      Environmental Protection Agency............................    16
    Santy, Robert, president, Regional Growth Partnership........    68
    Soler, Stephen, president, Georgetown Land Development Co....    75
    Trilling, Barry, partner, Wiggin and Dana, LLP...............    82
Letters, statements, etc., submitted for the record by:
    Barton, Elizabeth, chair, Environmental and Land Use 
      Department, Day, Berry & Howard, LLP, prepared statement of    59
    Carbone, Joseph, president/CEO, the Workplace, Inc., prepared 
      statement of...............................................    65
    Fabrizi, John, mayor, city of Bridgeport, CT, prepared 
      statement of...............................................    13
    Lauretti, Mark, mayor, city of Shelton, CT, prepared 
      statement of...............................................    38
    McCarthy, Gina, commissioner, Connecticut Department of 
      Environmental Protection, prepared statement of............    31
    Sanderson, Mary, Chief, Remediation and Restoration II 
      Branch, Office of Site Remediation and Restoration, U.S. 
      Environmental Protection Agency, prepared statement of.....    18
    Santy, Robert, president, Regional Growth Partnership, 
      prepared statement of......................................    71
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     7
    Soler, Stephen, president, Georgetown Land Development Co., 
      prepared statement of......................................    78
    Trilling, Barry, partner, Wiggin and Dana, LLP, prepared 
      statement of...............................................    84
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, briefing memo...........................     3


    THE CONNECTICUT EXPERIENCE: WHAT CAN BE DONE TO SPUR BROWNFIELD 
               REDEVELOPMENT IN THE NEW ENGLAND CORRIDOR?

                              ----------                              


                         MONDAY, MARCH 13, 2006

                  House of Representatives,
         Subcommittee on Federalism and the Census,
                            Committee on Government Reform,
                                                    Bridgeport, CT.
    The subcommittee met, pursuant to notice, at 1 p.m., at the 
City Council Chambers of Bridgeport City Hall, 45 Lyon Terrace, 
Bridgeport, CT, Hon. Michael Turner (chairman of the 
subcommittee) presiding.
    Present: Representatives Turner and Shays.
    Staff present: John Cuaderes, staff director; Shannon 
Weinberg, counsel; and Juliana French, clerk.
    Mr. Turner. If everyone is ready, we will get started. 
Please have a seat.
    A quorum being present, this hearing of the Subcommittee on 
Federalism and the Census will come to order.
    Welcome to the Subcommittee on Federalism and the Census 
field hearing entitled, ``The Connecticut Experience: What Can 
be Done to Spur Brownfield Redevelopment in the New England 
Corridor?''
    This is the fifth in a series of hearings held on the 
issues of brownfields and brownfield redevelopment.
    Our hearings in D.C. are informative, but the field 
hearings allow us to reach out to the public and interact with 
individual communities on a more personal basis, and learn 
firsthand of their concerns, and their successes and their 
suggestions.
    I'm very pleased with the response to this hearing from the 
great number of witnesses and the public attendance today.
    Before we begin, I want to express my appreciation to 
Congressman Shays for having us here. As you know, Congressman 
Shays chairs the National Security Subcommittee of Government 
Reform, and is known as a leader in the field of homeland 
security, the war on terror, and supporting our military and 
men in uniform.
    He has looked at issues, the impact on the men in uniform 
and it's wonderful to have this hearing here, addressing the 
issue of brownfields.
    He has been a leader in the fight to maintain CDBG, and 
insuring the development of funds and programs that support 
urban America, and is a member of this committee as we have 
tried to look at the issues of cities and urban Americans.
    So I appreciate your having us here, and look forward to 
the testimony from your community as to ways that we can 
fashion national policy to address these important issues.
    I would also express my great thanks to the mayor of the 
city of Bridgeport, to Mayor Fabrizi, for hosting these 
proceedings. We appreciate your accommodating efforts in 
lending your facilities.
    We have a great number of witnesses present, and we are 
here to listen to you. In the interest of time, I will submit 
my complete comments for the record, a copy of which is 
available at the press table, and we will move to introducing 
our witnesses and the testimony, and our opening statements 
from Congressman Shays.
    We have two panels of witnesses before us to help us 
understand the ground rules we developed. We also hope to hear 
your ideas for improving and complementing the EPA ground rules 
program, in order to encourage more aggressive redevelopment.
    Our first panel will have our host, Mayor John Fabrizi, of 
the city of Bridgeport; Mary Sanderson, the Chief of 
Remediation and Restoration II Branch of the Office of Site 
Remediation & Restoration of the U.S. Environmental Protection 
Agency, Region 1; Gina McCarthy, the Commissioner of the 
Connecticut Department of Environmental Protection; and Mayor 
Mark Lauretti of the city of Shelton.
    On our second panel of witnesses, presenting testimony will 
be Elizabeth Barton, partner and Chair of the Environmental & 
Land Use Department, Day, Berry & Howard; Joseph Carbone, 
president/CEO of the Workplace, Inc.; Robert Santy, president, 
Regional Growth Partnership; Stephen Soler, president of the 
Georgetown Land Development Co.; and Barry Trilling, partner in 
Wiggin and Dana.
    I look forward to the testimony of our distinguished panel 
of leaders.
    And I thank you all for your testimony in both preparing 
for this written testimony and the oral testimony you give 
today.
    As I recognized before, Congressman Chris Shays is chairman 
of the National Security Subcommittee and is a member of this 
subcommittee.
    We have oversight over EPA in areas of economic 
development.
    And Chairman Shays, I appreciate you having us here.
    [The prepared statement of Hon. Michael Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.001
    
    [GRAPHIC] [TIFF OMITTED] T9333.002
    
    [GRAPHIC] [TIFF OMITTED] T9333.003
    
    Mr. Shays. Thank you, Mr. Chairman.
    For those of you who are attending this hearing, I am a 
huge fan of Mike Turner. He was the former Mayor of Dayton and 
was my Vice Chairman on the subcommittee that I'm still 
Chairman of.
    And, he, when he got here, established the Save America's 
Cities Working Group within the Republican Conference. And that 
was huge because not many Republicans tend to represent urban 
areas, so they don't really focus on them the way they need to. 
And so what he's done is he's drawn the few that do and others 
that care about our cities. He has been really a leader in 
protecting the CDBG fund, and also spearheading brownfields 
efforts.
    Both our mayors know how important, and all our witnesses 
know how important, brownfield redevelopment is.
    But I want to state, once again, that I believe brownfield 
aid is probably the best way to help cities of almost anything 
the Federal Government does. And, obviously CDBG is important 
as well, but brownfields can help rebuild our cities.
    We were fortunate to get significant grants in the past, in 
the Fourth District. We have about $6.4 million that has been 
provided to the Fourth Congressional District. And I'm very 
pleased with how private developers and the communities have 
maximized this benefit.
    I'm hoping that Mike, with his good relationship with our 
conference, and being such a good, outspoken member on urban 
areas, will be able to continue to move this program forward.
    I want to say to all our witnesses here, they are all 
experts.
    And to Mike Turner I want to say, we have two fantastic 
panels. One's been mayor a little longer than the other, and 
both have had major challenges, and they've done a tremendous 
job. We appreciate the work of the EPA, and obviously, our head 
of the Department of Environmental Protection in Connecticut.
    So we're going to have a great hearing.
    I would also want to say for the record that I could have 
any hearing I want in Bridgeport, and I can go anywhere in the 
district. I wanted it to be in Bridgeport, No. 1, mayor, and I 
also wanted it to be about this issue, because I really believe 
that this is a huge issue to which we can make a difference.
    And your testimony today will be very valuable.
    So thank you all very much for coming.
    And, Mike Turner, I love you, and thank you for being here.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.012
    
    [GRAPHIC] [TIFF OMITTED] T9333.013
    
    [GRAPHIC] [TIFF OMITTED] T9333.014
    
    Mr. Turner. Mr. Chairman, I appreciate that.
    Each witness has kindly prepared testimony which will be 
included in the record of this hearing. Each witness has also 
prepared an oral statement, summarizing their written 
testimony.
    There is a timer on the witness table. The green light 
means you should begin, the red light indicates that your time 
has expired. In order to be sensitive to everyone's time 
schedule, we ask the witnesses to cooperate and limit their 
remarks to a 5-minute time period.
    It is the policy of this committee that witnesses are sworn 
in before they testify. I will now swear in the witnesses. If 
you will please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Let the record show that all witnesses have 
responded in the affirmative.
    We will begin with Mayor Fabrizi, of the city of 
Bridgeport.

    STATEMENT OF JOHN FABRIZI, MAYOR, CITY OF BRIDGEPORT, CT

    Mr. Fabrizi. Good afternoon, Chairman Turner, and 
Congressman Shays, and all of the other attendees this 
afternoon. Welcome to the great city of Bridgeport.
    Before I begin my remarks, Mr. Chairman, you described 
Congressman Shays and the work that he does on the Federal 
level. I want to say that every issue that you addressed, 
Congressman Shays has assisted and supported the city of 
Bridgeport in all of those assets, and he is a true, true 
friend to the city of Bridgeport.
    I want to thank you, Congressman, for hosting the meeting 
here this afternoon.
    I'm deeply appreciative, Mr. Chairman and Congressman 
Shays, and others, of recognizing the importance of the 
brownfields issue and having encouraged discussion on this 
issue by organizing a public hearing here in the city of 
Bridgeport.
    We in Bridgeport have long felt that neither the State of 
Connecticut nor the Federal Government dedicates enough 
resources or attention in any form toward brownfield 
redevelopment, but I have to say that we are extremely grateful 
for the significant support we have received on both levels, 
the Federal and State EPA, to date.
    Brownfields that are not redeveloped are contributing 
factors in many of the major problems that not only face 
Bridgeport, but face Connecticut and the entire country--
immense pockets of poverty in our urban centers, highway 
congestion, the accelerated pace of natural habitat destruction 
in our suburbs and rural areas, alike, and the escalation of 
property tax burdens in big cities and small towns.
    If we do not keep our commitment to recycling brownfields, 
I know that Connecticut will never enjoy all the economies and 
benefits of smart growth, no matter what investments are made 
elsewhere or laws are changed.
    Please note that for Bridgeport specifically, brownfields 
are the single greatest impediment to meaningful and 
sustainable improvement of our local economy. This is part of 
the lasting legacy of our proud industrial past and history, a 
history in which we served America as an arsenal of democracy 
through two world wars and provided a standard of excellence 
for the world machine through industry.
    The impact of brownfields was first identified in 
Bridgeport about 15 years ago, as we saw many industrial 
properties that had been a source of economic strength for 
Bridgeport during the 20th century increasingly being vacated, 
neglected, and abandoned.
    While the city suspected for some time that contamination 
problems could exist on many of these properties, the adoption 
and enforcement of new environmental laws brought these 
problems sharply into focus.
    New companies were not moving into many of these 
properties. Banks were not willing to lend money for the 
purchase or improvement of these properties. Owners were 
letting the properties deteriorate and fall into long-time tax 
delinquency.
    The city of Bridgeport has proactively attacked the 
brownfields problem since the early nineties, a cause that I 
championed as a city council member, and continue to champion 
as mayor.
    In the mid-nineties, Bridgeport successfully competed to 
become a U.S. EPA Brownfields Pilot City, only the second in 
the country to receive that designation. The additional EPA 
grant allowed us to identify inventory and prioritize over 250 
brownfield parcels in Bridgeport. Since conducting this 
inventory, we have had numerous successes in brownfield 
redevelopment, both large and small.
    When funding has been hard to come by, we have a track 
record of creativity and resourcefulness.
    EPA has repeatedly recognized our need and performance by 
funding site assessment grants, cleanup grants, and our 
Brownfields Revolving Loan Fund.
    With the limitations are our problems. Here are some.
    Staffing. Brownfield projects are labor intensive and time-
consuming. We are currently contemplating the hiring of a full-
time Brownfields Coordinator.
    Inadequate funding is available for site assessments and 
remediation. The city can only afford to take on a certain 
amount of this work every year. Inadequate funding is available 
for demolition activities, often a necessary prerequisite for 
assessment and remediation.
    And liability concerns prevent the city from being more 
aggressive in obtaining the site control.
    What would we like to see the Federal Government do is 
support Bridgeport's current funding applications to the EPA 
for 2006. We've proven that we know what to do with the funding 
when we get it.
    Increase assessment grant size when the sites and projects 
merits it.
    Increase the size of cleanup grants.
    Change the laws authorizing cleanup grants.
    Continue to replenish Brownfields Cleanup Revolving Loan 
funding for successful communities, and provide for funding for 
management and monitoring of long-term institutional controls.
    I do have much more to say, however, it is in my written 
testimony.
    And once again, on behalf of myself and the entire city of 
Bridgeport, I offer my sincere thanks to you, Congressman 
Shays, and especially to you, Chairman Turner, and all of those 
who have organized today's hearings.
    Thank you so much for considering Bridgeport.
    [The prepared statement of Mr. Fabrizi follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.015
    
    [GRAPHIC] [TIFF OMITTED] T9333.016
    
    [GRAPHIC] [TIFF OMITTED] T9333.017
    
    Mr. Turner. Thank you.
    Ms. Sanderson.

STATEMENT OF MARY SANDERSON, CHIEF, REMEDIATION AND RESTORATION 
  II BRANCH, OFFICE OF SITE REMEDIATION AND RESTORATION, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Sanderson. Good afternoon, Mr. Chairman, Congressman 
Shays, members of the subcommittee.
    My name is Mary Sanderson, and I direct the Remediation & 
Restoration Branch in the new England Region 1 Boston office.
    I'm here to talk with you a little bit about EPA's 
Brownfields Program, with which you're all very familiar.
    And we are very pleased with what Bridgeport is beginning 
for us here in the New England office, which began over a 
decade ago, with Bridgeport, CT, being one of the earliest 
entrants in tackling these issues.
    Nationwide, EPA initially provided seed money to 
communities to inventory brownfields and assess contamination 
of brownfields properties. In response to community requests, 
additional tools were added to the effort. Congress enacted 
legislation and provided tax incentives to promote cleanup and 
development of brownfields. Over the years an additional tool 
has been added. EPA has grants to capitalize revolving loan 
funds for cleanup. The job training grants were added to 
promote employment opportunities in brownfields communities--
I'll talk more about that shortly. Local governments and non-
governmental organizations began to focus on brownfields, 
looking at local and regional approaches.
    The Small Business Liability Relief and Brownfields 
Revitalization Act--we will call it the Brownfields Law--
provided EPA with a clear congressional mandate on brownfields. 
The law expanded the program, boosted funding levels, expanded 
the entities, properties and activities eligible for the 
funding, clarified and strengthened liability protection for 
certain properties, and provided increased support to State and 
tribal response programs.
    Here in New England, since the start of the EPA brownfields 
program, $75 million in EPA brownfield grants has been awarded 
to numerous communities.
    For the past 3 years, EPA has awarded approximately $1 
million annually to the Connecticut Department of Environmental 
Protection, to further advance their brownfields program.
    As a whole, the State of Connecticut and its communities 
and nonprofit organizations have received over $24 million in 
EPA brownfields funding to date.
    Bridgeport, one of our first grantees, has a proven track 
record with all types of brownfields funding, not only for the 
EPA, but other public and private sources, to deal with 
brownfields through redevelopment.
    EPA invested $1 million to date in assessment grants for 
the city of Bridgeport to conduct extensive environmental 
assessment work and inventory sites in their community.
    EPA has also invested over $2 million in targeted 
brownfields assessments throughout Connecticut, as well. These 
are the single-property assessments that are designed to help 
communities on a more direct basis, especially when they do not 
have EPA assessment grants.
    One example that I was fortunate to be able to see this 
morning is in Shelton, where the EPA's TBA resources were used 
to assess a portion of Canal Street. This helped to support the 
cleanup demand to the town of Shelton. This area will soon 
become part of the Farm and Public Market along the riverfront 
area.
    EPA provides direct cleanup grants of up to $200,000 per 
site to public sector and nonprofit property owners, to carry 
out cleanup activities.
    Here in New England we are extremely proud of the 50 
cleanup grants that have been awarded to date, to the value of 
$8.4 million, which demonstrates the maturation of the 
Brownfields cleanup program here in New England, as work moves 
from assessment to more cleanups. In Connecticut, two of our 
cleanup grant recipients are nonprofit organizations, Habitat 
for Humanity and Georgetown Redevelopment Corp., and we look 
forward to continuing our partnership with the nonprofit 
community.
    The revolving loan fund grants provide State and local 
governments with capital to make grants for low or no-interest 
loans to finance brownfields cleanup. The brownfields law 
provided flexibility in the program, in that it expands 
properties and activities that are eligible for funding, 
provided the capability to make sub-grants, as well as loans 
for cleanup, and streamlined technical requirements, while 
still ensuring public health and environmental protection.
    A number of loans have been made here in Connecticut and 
several more are being planned.
    In addition to assessment cleanup funding, EPA also funds 
brownfields training, research, and technical assistance.
    As communities are cleaning up brownfields, EPA recognizes 
the need for a work force with environmental cleanup skills. 
You will hear shortly of the great work that the Workplace has 
been conducting under this job training program.
    The development of successful State programs is essential 
to ensuring the successful implementation of the brownfields 
program, since they truly are a funding regulated support 
group.
    This funding is helping States and tribes to develop or 
enhance their response program, and for structure and 
capabilities.
    Here in Region 1, we work very hard to retain close 
relationships with our State, since the inception of the 
brownfields program, and these partnerships are an integral 
part of our success.
    Continuing our success will require ever more interaction 
and collaboration among all members of the government, the 
private sector and nongovernmental working organizations.
    EPA is dedicated to continuing our efforts to reach out to 
our partners and build safe and sustainable communities through 
public and private partnerships.
    And one thing that's clear, that notwithstanding all those 
great efforts, we will never be able to make the program as 
successful as we can without the funding and know-how of our 
private sector.
    [The prepared statement of Ms. Sanderson follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.018
    
    [GRAPHIC] [TIFF OMITTED] T9333.019
    
    [GRAPHIC] [TIFF OMITTED] T9333.020
    
    [GRAPHIC] [TIFF OMITTED] T9333.021
    
    [GRAPHIC] [TIFF OMITTED] T9333.022
    
    [GRAPHIC] [TIFF OMITTED] T9333.023
    
    [GRAPHIC] [TIFF OMITTED] T9333.024
    
    [GRAPHIC] [TIFF OMITTED] T9333.025
    
    [GRAPHIC] [TIFF OMITTED] T9333.026
    
    [GRAPHIC] [TIFF OMITTED] T9333.027
    
    Mr. Turner. Thank you.
    Ms. McCarthy.
    Mr. Shays. I just have to warn you, she has a little bit of 
a Boston accent.

     STATEMENT OF GINA McCARTHY, COMMISSIONER, CONNECTICUT 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Ms. McCarthy. Come on. We won't talk about the past.
    I appreciate very much the opportunity to be here Mr. 
Chairman, and members of the subcommittee, and I want to thank 
you for inviting me to testify today.
    I also want to thank Chairman Turner, and also, Congressman 
Shays, as well as Congresswoman Johnson, for all of their 
efforts to help focus attention on brownfields redevelopment.
    We consider brownfields redevelopment to be a critical 
component of our efforts to address environmental threats in 
concert with our efforts to stimulate economic growth, and 
revitalize the State's urban communities.
    Connecticut, like all of New England, has a 
disproportionate number of contaminated properties that results 
from our past success as the birthplace of the industrial 
revolution. There are many under-utilized commercial sites with 
significant redevelopment potential. At the same time we are 
facing tremendous growth pressures that are threatening to 
consume our precious open space.
    It is our hope that by working together, we can redirect 
the development pressures to focus growth where it is most 
beneficial, and where it is sustainable--in the State's urban 
areas, where infrastructure exists, where transit is 
accessible, and where these brownfields sites offer truly a 
prospect of both environmental and economic success.
    Mr. Chairman, I also want to commend your efforts to pass 
legislation known as the America's Brownfield Cleanup Act.
    The creation of a Federal business tax credit for 
expenditures related to remediation and redevelopment of 
contaminated properties that bridges some of the gaps in the 
existing funding. Particularly, I would highlight what Mayor 
Fabrizi has indicated concerning demolition cost is extremely 
important. It's the sort of comprehensive approach that we 
believe could truly remove obstacles to brownfields cleanup.
    Today, I would like to give you a thumbnail sketch of what 
Connecticut does on the brownfield side, and also provide a few 
recommendations, like the passage of the America's Brownfields 
Cleanup Act, that we think can really spur brownfields 
redevelopment along.
    In 1985, Connecticut passed the Property Transfer Act, 
which was a law that brings sellers and buyers together, to 
disclose, to discuss, and apportion cleanup liability at the 
time that it makes the most sense--before the transaction is 
initiated, and provides DEP with a cleanup commitment. The 
Property Transfer Act helps stimulate brownfields redevelopment 
by ensuring that buyers are given a full opportunity to take 
environmental considerations into the cost of the transaction 
negotiations. It reduces financial uncertainties that can 
hinder reuse opportunities.
    More than 4,300 property transactions have occurred under 
this program over the past 20 years. This demonstrates that 
contamination, in and of itself, doesn't prevent the sale or 
reuse of properties. However, we have a long way to go of it. 
There are at least 7,000 properties that have been, or are 
currently being, remediated through Federal and State programs 
in Connecticut, and we anticipate that thousands more will come 
up as redevelopment is sparked.
    Ten years ago, we also put into place additional tools the 
Remediation Standard Regulations that provide scientifically 
sound performance standards to define cleanup end points. It's 
a flexible approach, a risk-based approach, that allows 
flexibility, and it provides environmental standards that take 
into consideration human exposures, and addresses cost 
effective and safe cleanup end points.
    Ten years ago, Connecticut also began licensing 
environmental professionals--those are LEPs--to oversee 
environmental investigations and cleanups, and ultimately, to 
verify that cleanups are accomplished.
    More than 300 environmental professionals are now licensed 
to conduct this activity. Through rigorous education, 
experience and testing requirements, we believe they are 
providing high quality service to our communities and to the 
State.
    We would hope that any Federal legislation would treat the 
expenditures resulting from their remediation work, which is 
conducted in accordance with the DEP-approved plan, in a 
similar fashion to any work that the Department undertakes 
itself.
    We believe that Connecticut is in the forefront of using 
State land restrictions also as a tool to minimize--to 
eliminate the potential of people in the environment to be 
exposed to contamination.
    Here in Bridgeport, for example, the former Jenkins Valve 
manufacturing plant was converted into a baseball park, a 
skating rink, and a museum.
    The ballpark was built with $11 million in private 
investment, $1 million of local funding, and $2 million in 
State funding.
    The project has added 68 jobs to the local economy.
    Connecticut DEP and its partners, the Department of 
Economics and Community Development, and the Connecticut 
Brownfields Redevelopment Authority, will continue to buildupon 
these successes, but we need continued support from both 
private and public investments if we are to speed up the rate 
of brownfields redevelopment.
    We appreciate all of the Federal funding that has been 
afforded to us. In recent years, the U.S. EPA has awarded over 
$20 million directly to municipalities and regional 
organizations. EPA has provided approximately $1 million a year 
for the last 3 years for Connecticut to support the 
Department's brownfields work.
    Federal tax credits that are being considered, such as 
those proposed by Chairman Turner, and streamlined Federal 
grants and loans, are tools that can help leverage these 
existing resources, and really move brownfields redevelopment 
along in the State.
    We understand the value of the Federal partnerships. We 
need to continue that and move that forward. We need to invest 
in our village centers to bring us closer to achieving our 
goals of environmental restoration, revitalized communities, 
preservation of open space and farmlands, and sustainable 
economic growth.
    Thank you very much.
    [The prepared statement of Ms. McCarthy follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.028
    
    [GRAPHIC] [TIFF OMITTED] T9333.029
    
    [GRAPHIC] [TIFF OMITTED] T9333.030
    
    [GRAPHIC] [TIFF OMITTED] T9333.031
    
    Mr. Turner. The Honorable Mark Lauretti.

     STATEMENT OF MARK LAURETTI, MAYOR, CITY OF SHELTON, CT

    Mr. Lauretti. Good afternoon, Mr. Chairman, Congressman 
Shays, members of the subcommittee.
    Thank you for your invitation to testify this afternoon on 
the critical issue of brownfield redevelopment, and to provide 
local officials with an opportunity to discuss impediments 
which affect our ability to address brownfield-related issues.
    I'm going to also echo the same comments and sentiments of 
the speakers before me, because I think that once you work in 
this area and spend a significant amount of time trying to 
affect a brownfields remediation project, you tend to 
experience the same types of things.
    In the city of Shelton, which is located in Fairfield 
County, we are a community which has made the transition to a 
21st century economy, but one that still has remaining 
brownfield issues, which are remnants of a heavy industrial 
use, which were prevalent along our Housatonic River and 
Naugatuck River Valley.
    Beginning in 1991, the city of Shelton embarked on an 
ambitious program of downtown revitalization and we have made 
significant strides in working in partnerships with the U.S. 
Department of Environmental Protection, the Connecticut 
Department of Environmental Protection, and the Connecticut 
Department of Economic and Community Development.
    Our efforts have embraced the concept of a public and 
private participation, and a meaningful citizens' 
participation. Our efforts involve local and regional 
officials, and have made important strides toward cementing 
ongoing relationships. I would add that the Federal Government 
has made important strides as well. However, several issues 
still persist which require your attention.
    Given our commitment to smart growth and the desire to put 
abandoned properties back to work, it is inconceivable that 
brownfields redevelopment is not a national priority. Funding 
levels are meager at best and communities without experienced 
staff have little opportunity to access the current programs of 
the U.S. EPA. While some meaningful regional collaboration has 
been fostered, such as our own Naugatuck Valley pilot, funding 
remains a major impediment to timely progress.
    The newer funding initiatives that have been offered by the 
U.S. EPA are excellent in the ability of communities to access 
remediation funding; however, these programs are also 
underfunded and offered only once annually.
    Programs that have developed experience and capacity are 
hampered by the lengthy application and review process. We 
applaud our own Region 1 officials for their efforts to provide 
excellent technical assistance and timely responses to every 
request we make. They are hampered, however, by limits of 
funding and processes which are not conducive to fast track.
    One program that stands out as being user-friendly is the 
EPA Targeted Assessment Site program. This program combines a 
simple, user-friendly application with timely decisions, and 
very meaningful technical assistance to local and regional site 
evaluations.
    It is difficult to conceive that there is no comprehensive 
registry of brownfield sites after all the time and investments 
that have been made to launch national brownfields awareness. 
This should be made an immediate priority. Congress should 
consider a requirement that the U.S. EPA create this program, 
fund it properly, and implement it over the next several years. 
Considerable field work has been accomplished which could 
immediately be folded into this program, and speaking for our 
community, our information is ready to be shared with Federal, 
State, and regional officials.
    In respect to the committee's interest in obtaining input 
concerning House bill 4480, our community's position is as 
follows: Every tool possible should be employed to attack the 
issue of sites that are dormant due to historical 
contamination.
    The proposal included in this legislation to offer tax 
credits is appropriate and should prove to be a valuable weapon 
in the arsenal of tools which will be needed to make real 
progress in addressing the estimated number of sites needing 
attention in Connecticut and nationally.
    This is not the only approach to be used. Government needs 
to find ways to lower the costs associated with brownfield 
remediation. This will create the truest form of incentive for 
private entrepreneurial expertise to effect a positive change, 
and one that will benefit all. I would respectfully suggest, 
however, that the offering needs to be user-friendly to both 
large and small developments, and to communities that have 
institutionalized programs, and those that lack staff capacity.
    The private businessman is the best vehicle to use in 
trying to expand the tax base through brownfield remediation 
and we must allow them to do that.
    The extent of brownfield problems has been described as a 
federally created problem due to the Superfund law that was 
passed in 1980. This is true in some respects. As a result of 
that law, an environment has been created that discourages 
owners to find out if their property is contaminated. This has 
promoted owners of such property to abandon them, along with 
general reluctance to sell properties, for fear of liability 
and the associated cost.
    Brownfields are defined as an abandoned or under-utilized 
property that is not redeveloped due to the fear of real or 
perceived environmental contamination.
    The current brownfields law, the Small Business Liability 
Relief and Brownfields Revitalization Act of 2002, provides 
some protection against liability but does not address the high 
redevelopment costs associated with redeveloping brownfield 
sites and does not provide enough of an incentive for voluntary 
action.
    The current brownfield program has done a good job of 
redeveloping what someone described as less problematic sites 
that are either not that contaminated or in places that are 
highly desirable. However, with the current level of resources, 
the overall magnitude of this important issue can never be 
resolved.
    Let's mention something about how sprawl has affected many 
States and how brownfield remediation can help reduce sprawl.
    There is no question that new private investment is 
naturally inclined to seek out opportunities that will allow 
them to realize a reasonable return on their investment and to 
minimize their risk. Brownfields should become the preferred 
area for new private investment using financial incentives such 
as tax credits to reawakening these forgotten neighborhoods. 
Once this has started, pressure can be reduced to develop 
pristine open spaces and our valuable farmlands for new private 
investments.
    Current EPA programs are a step in the right direction but 
additional tools are sorely needed to foster more development 
outside the U.S. EPA, particularly private sector funding. 
Incentives included in legislation similar to House bill 4480 
can certainly improve the climate for attracting new and 
private investments in our urban centers, or to sites 
possessing urban characteristics.
    While we share the hope to use these financial incentives, 
we also hope that the Federal Government recognizes that their 
non-economic development activities, such as parks and public 
spaces, also contribute greatly to community rebuilding and 
that programs and financial assistance should be tailored for 
those sites, which contribute indirectly to the economic 
development as well.
    We hope that the additional legislation which complements 
House bill 4480 would be the motivation for owners of cold 
storage sites--sites that are held onto by the current owners 
with no intention of selling or redeveloping the land--to start 
cleaning up the properties and eventually sell or redevelop the 
site for themselves.
    Again, on behalf of the city of Shelton, please accept our 
thanks for providing us with the opportunity to support 
national initiatives which will truly lead to smart growth.
    [The prepared statement of Mr. Lauretti follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.032
    
    [GRAPHIC] [TIFF OMITTED] T9333.033
    
    [GRAPHIC] [TIFF OMITTED] T9333.034
    
    [GRAPHIC] [TIFF OMITTED] T9333.035
    
    [GRAPHIC] [TIFF OMITTED] T9333.036
    
    [GRAPHIC] [TIFF OMITTED] T9333.037
    
    Mr. Shays. Thank you.
    Mr. Turner. Thank you very much for your preparation, and 
the insight that you gave us today.
    I will begin a round of questions, starting with Mr. Shays.
    Mr. Shays. I understand, Mr. Chairman, that the mayor needs 
to leave, at the very latest, by 2 p.m., so we'll get you out 
of here.
    Mr. Fabrizi. I called the office so I have as much time as 
you want now.
    Mr. Shays. To make it simpler, with the mic, I'll just go 
down and you can answer down the line.
    Bridgeport got the first grant, assessment grant. I think 
there were two in New England for $250,000. It was an 
assessment grant. I am interested to know--one of the good 
things about that assessment grant was that--assessing the 
properties--was that we realized that some properties weren't 
as dirty as we thought they were, so then people actually came 
in and started to develop these properties. Others had some 
costs in cleaning up. So the question I have is basically, has 
Bridgeport assessed most of its properties and now are we at 
the point where we need to be doing more on the cleanup of 
them? And I would like to ask each of you, Mayor Lauretti, as 
well, but also, our two experts from the Federal and State 
government to speak to the issue of assessment versus cleanup.
    And I'll just throw out another one, since you will pass 
the mics back. I'm hearing Connecticut has 700 sites. How many 
are we actually able to assess and how many are we able to 
clean up? In the New England area, about how many sites do you 
think there might be and are we able to clean them up?
    So let me throw all those questions out to the panel.
    Mr. Fabrizi. Thank you.
    The initial EPA agreement allowed us, the city of 
Bridgeport, to identify, inventory, and prioritize over 250 
brownfield parcels just in the city of Bridgeport alone.
    And since conducting that inventory, we've had numerous 
successes in brownfield redevelopment, both large and small, by 
expanding parks, recycling industrial properties, modernizing 
larger portions of Bridgeport to the waterfront.
    But again, in response to the question, the successes to 
date are not enough and brownfields continue to impact the 
quality of life in the neighborhoods, the employment prospects 
of our residents, and threaten public health in ways that we 
are only starting to quantify.
    But the financial impact of the brownfields is 
significant--and our examination is based on our current zoning 
and real estate investment trends. We've estimated that the 
city foregos somewhere between $25 and $50 million in property 
tax revenues every year because more than 400 acres of 
brownfield sites are not realizing their economic potential.
    Mr. Shays. So is the issue there that you need more money 
to clean up, to help developers clean up? Is the city taking 
ownership of some of these properties?
    Mr. Fabrizi. The city has taken ownership to some 
properties.
    I have to tell you that we can't afford to continue to 
allow our real estate to sit idle.
    One thing that we did just recently that was--in some 
folks' mind--termed controversial, per se, we used a State 
statute that's 5 or 6 years old to allow a private developer to 
use his own funds to clean up property at the tune--I 
understand that 7 or 8 years ago, the city could have bought 
this property for next to nothing, or foreclosed on it, we 
would have assumed back then, a $7 or $8 million liability 
cleanup, where somebody else had purchased the property and has 
done $4 million worth of cleanup and has $1 million more to go 
that the city has forgiven through council resolution to 
forgive some of those past property taxes. That's very similar 
in nature to the property tax credit that the mayor of Shelton 
mentioned before, and so did Ms. Sanderson, I believe, and 
also, Commissioner McCarthy.
    That's one way to help with private developers as far as 
the Federal tax income credit is concerned--takes away the 
controversy of having people make bold decisions here. But we 
will continue to make them as we go along.
    We have identified, thanks to EPA and the State, we have 
identified an inventory of properties. Now it's money to clean 
them up. But here in Bridgeport, we can use a person full-time 
to do that and we're strapped under our budget. That's how much 
of a focus needs to be put right here at home, in the city of 
Bridgeport.
    You're talking 400 acres.
    Mr. Shays. Thank you very much.
    Mr. Fabrizi. Thank you.
    Mr. Shays. Ms. Sanderson.
    Ms. Sanderson. A couple of points. One is a great number of 
cleanup grant applications to see the program ensure that it is 
moving from assessments toward cleanup. We have seen that scale 
start to tip.
    With regard to the number of sites, I wish I had an answer 
to that. I don't so we'll just keep looking. The nationwide 
estimates are about half a million to a million brownfield 
sites. We probably have more than our 10 percent share, given 
the history of the area, so there are potentially 100,000 sites 
out there to be assessed.
    One statistic I think is interesting is the assessment 
program finds one-third of the sites are not contaminated. So 
it very much does look at that perceived contamination, as well 
as actual. On the other hand, we certainly may find some very 
contaminated sites as well.
    In terms of inventories, we do give funding to our States, 
and to our communities, to develop those inventories. And I 
think, in the spirit of local solutions and regional solutions 
to things, I don't know that EPA is trying to drive that so 
much as give the tools to the communities looking at those 
inventories and prioritizing those.
    Mr. Shays. Could you put the mic a little closer to you.
    Ms. Sanderson. My last thought is, it is seed funding. We 
do realize that there could be an easy answer, sure, you know, 
more money for cleanup. But, as you realize, certainly, to 
balance the whole thing in terms of how much do you fund. And 
so, we work very hard on the partnerships. But you heard our 
seed funding, you heard our targeted brownfield assessment. To 
jump start that--or givebacks. And partnerships with 
developers----
    Mr. Shays. Let me just interrupt you. Our time is very 
precious here. I'll just ask you a followup question.
    Can you think of a more important program, or would you put 
this under EPA's, one of it's more important programs? How 
would you rate this program?
    Ms. Sanderson. Top priority, unequivocally.
    Mr. Shays. It gets a good return on the dollar, correct?
    Ms. Sanderson. Absolutely.
    Mr. Shays. Let me ask you to pass it on.
    Ms. McCarthy. Let me just advise you that under the 
Property Transfer Act, we have already looked at 4,300 
properties. So we already know that those properties are moving 
forward. There is potentially, at this point, 7,000 in the 
system.
    Mr. Shays. 7,000, not 700.
    Ms. McCarthy. Yes. We have focused--and we have funding 
available at the State level that focuses--on assessments. We 
believe that it's extremely important to try to provide 
certainty to developers who are looking to redevelop these 
properties. That is absolutely key.
    Right now, I think we are also falling short on the actual 
cleanups. I think that on the State level, municipalities are 
struggling to move properties forward that have economic 
potential, but the demolition costs can really get in the way. 
There are certain costs that are always associated with the 
redevelopment of these projects that, simply, there is no 
funding source to turn to.
    Mr. Shays. Do we have a lot of different gradations for 
describing the brownfield site? And first, do we rate them 
under certain categories?
    Ms. McCarthy. No, we don't differentiate them.
    We know that they're either mildly contaminated or heavily 
contaminated. The assessment provides an opportunity to get a 
sort of a feel for what it is.
    Mr. Shays. So we basically categorize it by the dollars and 
cents--it's going to cost so much to clean up.
    Ms. McCarthy. I think if you're in Connecticut and you're 
looking at a piece of property in an urban area, whether it's 
been looked at or not, you put it into the brownfield site, you 
put it in the contaminated site, because you're concerned about 
the history in the State.
    Mr. Shays. The assumption is it's a brownfield site, a 
dirty site, but clearly, not a Superfund site.
    Let me just, I want to make sure that the chairman has a 
chance to talk to the mayors before they go.
    Yes.
    Mr. Lauretti. Any specific area that you want me to touch 
on? I've got several questions with respect to sites, and the 
number of sites. So any specific areas?
    Mr. Shays. Tell me, from your standpoint, anything you 
would want to qualify from what you've heard so far, or 
emphasize on the answers so far?
    Mr. Lauretti. We have done to completion--and to the point 
where a property becomes productive--several sites in our 
community, particularly in the downtown area. You have to do 
multiple things--not just focus onsite assessments--to be 
successful, and we have an ongoing program.
    Mr. Shays. Do you spend a lot of your own city dollars to 
do this?
    Mr. Lauretti. We have. We have put some city money into the 
equation.
    Mr. Shays. You have almost 4 million square feet of office 
space, correct? Close to that?
    Mr. Lauretti. Correct.
    Mr. Shays. It's huge. It's very much a suburban community 
city, but you have a lot of residential areas. Those are clean.
    So was your emphasis at the beginning to deal with the 
clean sites? Are you taking the clean site dollars to help fund 
the dirty site areas?
    Mr. Lauretti. Actually, it's a combination of things. You 
try to leverage every dollar that you can from every area that 
you can, not only from some of your tax revenue, but try to get 
private developers into the equation, to fund some of the 
remediation, in particular.
    I think that as the approval process becomes more 
streamlined, and there is clarity as to what needs to be done 
with the site, you will get that outside interest.
    I mean, obviously, it has to be monitored--you can't give 
them a free hand--but there has to be an incentive for people. 
We, in government, have to be a catalyst to making that happen.
    Mr. Shays. The bottom line is--and this is my last point--
you are not going to get this done without the third party, the 
developer, actually--the individual owning the property 
ultimately is going to have to bear a lot of the cost, but they 
know what it costs, because you had an assessment, they know 
the risks. But the market must then be able to support it; is 
that a pretty fair assumption?
    Mr. Lauretti. That's a pretty fair assumption.
    Mr. Shays. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Turner. Mayor Fabrizi, first, I'll tell you why I'm 
going to ask you the questions that I'm going to ask you. I'm 
going to give you an opportunity for a commercial in the middle 
of our hearing.
    Mr. Shays. Good man.
    Mr. Turner. In addition to the opportunity to learn about 
the differences between the various programs that occur in each 
State and the effectiveness of our Federal programs--how they 
are working, how they can be improved--what comes out of a 
hearing like this, in addition to where it is locally, your 
words are taken down, as you can see, and transcribed, and 
become part of the Federal record.
    It's we, as a committee, who help form policy on the 
Federal level, and to help advance legislation.
    On the CDBG issue, we had six hearings. From those 
hearings, we heard from representatives from all over the 
country. We took their testimony and we put together a 75-page 
report that passed over our full Committee on Government Reform 
on a bipartisan basis that listed some of the problems of CDBG, 
but also, some of the great things about CDBG.
    On the issue of ground use, we are also going to be doing 
the same. In addition to your testimony today, we will be doing 
a report of the subcommittee that will go to the full 
committee. And, hopefully, we will have some insights as to 
framing the issue, some of the successes that we are having, 
and then some of the solutions that are going on in various 
communities. And I tell you that, because the next questions 
that I'm going to ask you will seem like you've already 
addressed them, but again, I want to give you an opportunity to 
give us a commercial that we can use in this record to put in 
our report as to why brownfields are important.
    So with that, the two mayors can do this, I'll start with 
you, Mayor Lauretti, since you have the microphone.
    If you can talk about the issue of economic development in 
urban areas, because almost all of the literature that we have, 
everybody who testifies, everyone agrees that the largest 
impediment to economic development in urban areas, areas that 
have been developed where you're doing redevelopment, is the 
issue of the availability of land.
    Because you have the availability of land, and then 
brownfield as an opportunity, it would seem to lend itself 
that, if you had the proper tools, and the proper funding, that 
brownfields could be an excellent fuel for economic development 
in the community.
    If you can tell us about that, it will be an opportunity to 
see what can happen if you had the resources for development in 
your community.
    Mr. Lauretti. I don't think there is any question about it, 
that brownfields redevelopment is an excellent economic 
opportunity for any municipality and State. And I think we're 
proving that in Shelton.
    But, as I said earlier, you have to do several things that 
run parallel with one another, it can't just be one thing, 
because once the clock keeps ticking, you lose your economic 
cycles, and then investment opportunities are not conducive to 
get the other part of the equation in motion.
    What we did many years ago, probably going back 12, 13 
years ago, was establish a master plan for our downtown area 
that borders the Housatonic River, and we are now 10, 12 years 
later, starting to see the fruits of everyone's efforts, both 
the Federal Government, and the State's participation 
financially, as well as the taxpayers in the city of Shelton, 
because now we've got private development at the table in a big 
way that is just incredible.
    In the next 3 to 5 years, people are going to be in awe of 
what goes on along the Housatonic river and the city of Shelton 
from an economic development standpoint. And we are that far 
along because we had a plan, and we made commitments, and we 
fulfilled our commitments, and we're continuing to drive the 
issue.
    So I think that, from an economic standpoint, you've got to 
look at that and make that part of what drives your economic 
engine for your municipality.
    Mr. Turner. Before our recess, I'll ask the second part of 
the question, and that is, once we establish that funds, once 
available to you, would result--funds available to you for 
demolition, cleanup would result in land development, and 
therefore, economic growth, the sources of those funds become 
an issue. And I think many times there is pressure on local 
governments to participate at a higher level of economic 
development when your tax structures are not set up for 
economic development purposes, and the basic functions, the 
services that you have to provide to your residents at the 
local level are just so important.
    You talked a minute ago about the financial squeeze that 
the cities have, the decisions that you have to make, and 
making certain that you fund the services in the community.
    Mr. Lauretti. Well, that's the balancing act that every 
local official has to do. And the process is ongoing.
    As an example, many years ago, we invested a lot of city 
money into open space purposes. But we've also, at the same 
time, invested our resources into the infrastructure of our 
downtown, where all the brownfields are located.
    And I keep going back to the point that you've got to give 
the private entrepreneur the opportunity to fit into the 
equation. And a lot of it has to do with the process, and how 
long the process takes, and is it reasonable, and is it cost 
effective.
    As an example, we have several locations right now in the 
downtown area that have had ongoing contamination, and to sit 
there and do nothing allows that contamination to keep 
affecting the environment. But when you have someone that wants 
to invest in that property, now you say to them, OK, you can do 
that, but you're going to have to do many, many things that are 
just cost ineffective, so that person goes away.
    And it's almost kind of like a defeated logic that you have 
here, because it's OK to let the property sit there and 
contaminate a river, but when someone wants to come in and do 
something, you tell them ``well, listen, you've got to monitor 
it for 30 years, so do that, and we'll give you the 
approvals.''
    And I've got to be very frank about this, because this is 
the real life that we experience, and it is about the 
environment, it's about people's health, but it's also about 
the money. And you can't lose sight of that. So we've got to 
find a happy medium where everything can coexist.
    Other things that we've done and established in our master 
plan is we've adopted an anti-blight ordinance that allowed us 
to take down properties that could become firetraps and 
locations for illegal activity, for drug transactions, places 
for homeless, and you name it, it occurs there. So the anti-
blight program that we have has served us well and we've done 
that in conjunction with brownfields remediation.
    That's where we've had a real strong advantage in being 
able to move it along a lot quicker than a lot of people 
anticipated.
    Mr. Turner. Mayor Fabrizi, the first issue, the issue of 
the availability of land being restricted, for economic 
development for your city, have value for brownfields 
redevelopment, and make a difference in making productive land 
available, utilized.
    And then also you talk about the funding pressures that you 
have as a city, the competing interests providing basic 
services, and also, trying to fund some of these great 
opportunities.
    Mr. Fabrizi. Those are all the right questions to ask, as 
far as frustrations and issues and concerns go.
    Bridgeport is made up of 17 square miles, 16 square miles 
are built out on, there is not much available land at all.
    With the other part of the chemistry, you have over 250 
parcels identified as brownfields sites, totaling almost 400 
acres, with lost revenues, lost job potential, and everything 
that goes along with that, it gets seemingly more frustrating 
each and every day.
    When developers are knocking on your door to either build 
or rebuild, or redevelop or invest, and you just don't have the 
property to identify, to put these parcels together, mainly 
because of the cost to clean up and remediate these 
properties--that's where it's come up time and time again, 
regarding remediation, regarding developers, regarding what can 
we do as far as tax credits, or an invite to those who are 
investing their money, or who are going to.
    And we took a page out of Shelton's book and New Haven's 
book as far as anti-blight is concerned. And we know that these 
properties also invite detractors to the quality of life--
regardless if it's homelessness, if it's blight, if it's 
illegal activities.
    But also, in addition, you talk about balancing the budget. 
Every year we are faced with increasing costs--if it's health 
costs that are spiraling out of control, if it's utility costs, 
but now, we have to take into consideration what senior center 
do we close, what firehouse do we close, how many police and 
fire recruitment classes do you hold off. So the impact is 
severe.
    Mr. Turner. My next question is, in 2002, the Brownfield 
Remediation Act that was passed, providing opportunity for some 
liability relief for potential purchasers who were looking to 
redevelop property.
    It also changed some of the tax treatment of the 
expenditures and provided for some relatively small grant 
programs that you both discussed today.
    Many critics of those programs--they are not critics in 
terms of saying that this should not have been done, but they 
are critics in terms of the volume of commitment that has been 
involved--say that the new tax treatments and the small grants 
have allowed people to invest in those pieces of property that 
have the least amount of contamination.
    We are finding in the assessments grants, when the 
assessment was done, others have not been contaminated, but 
some we all know are, and they remain there, abandoned, and 
robbing the economic potential, and also are a blighting 
influence on the properties around them. We've all invested in 
infrastructure, and we continue to invest in infrastructure to 
support them, and our school systems, our police and fire is 
lost.
    Would you please talk for a moment about the need for 
additional funding, because we hear many times of the sites 
that are worse. There is an understanding of the extent of the 
contamination exceeding the value of the property. Even when 
it's cleaned it will be a negative.
    Since, it's a federally created issue, really, you have 
this issue of this negative dollar being invested.
    Can you speak about that for a moment?
    Mr. Fabrizi. I certainly can, because we've experienced it 
in the city of Bridgeport each and every day.
    And we have what I term as active and inactive brownfields.
    An active brownfield, GE corporation, which is a big plant 
has 60 some-odd acres. However, by law, they have to have 142 
buildings to house 12,000, I believe, during the war time. And 
they were big manufacturing here in Bridgeport. And I truly 
believe they keep their property up. But to demolish those 
buildings, the environmental concerns, I know will be in the 
hundreds of million of dollars, I think. I'm not an expert 
there.
    So why does a big company, with a great asset, just 
continue to maintain the status quo? But by maintaining the 
status quo, this allows the city of Bridgeport, or other active 
economic development, to come in and revitalize the property, 
and expand our tax base.
    I think on the Federal level, especially with companies in 
that respect, something needs to be done as far as pushing them 
along, and just maintaining property for 30, 40, 50 years, 
inactive where a company has gone out of business, like 
Remington, owed $7 million of back taxes, and transfers the 
property to an LLC, and other places like that. Those are the 
frustrations that we see all the time.
    Mr. Turner. Mayor Lauretti, if you can just talk about the 
issue of--a lot of the properties, at this point, are 
properties that do not have excessive contamination, many of 
them have light contamination. Speak for a moment, if you will, 
about those properties, and you don't have to be specific if 
you don't want to, but of the need of the properties that exist 
in your community, where you know there is real--not a 
Superfund site--but there is real contamination. The cost of 
decontamination exceeds the value of the property once it's 
cleaned, but if that property is available, it would be a great 
economic opportunity.
    Mr. Lauretti. I actually believe we have gotten to the 
point where we have been able to reverse that negative trend 
just through the site assessment program that we have received 
through the EPA and Region 1. I made in my comments earlier how 
helpful those were.
    When you are able to demonstrate to the private 
entrepreneur that the costs associated with bringing a property 
back, to produce an economic benefit, both for the tax rolls, 
and for the entrepreneur, that serves as a great stimulus to 
get people interested. And we are actually seeing that happen 
now in an area that is historic, like many cities along the 
east coast that have been old industrial hubs for hundreds of 
years, and 100 years ago, that have laid fallow over the last 
40, 50 years, just because of the contamination.
    So I think that things like that--and I again need to 
emphasize how important it is to clarify the regulatory 
process, because we don't want to regulate any property out of 
the equation--we want to make sure that there are opportunities 
to be able to understand just what it is that we can do, and if 
there are other uses, if they are not economic, but are there 
other uses that these properties could contribute to the 
surrounding area that will help reduce the economics of an 
area.
    And I mentioned in my opening comments about how it's 
important to establish walking areas, and green belts, and 
public gathering places that could serve those uses. They do 
provide a real benefit to the vitality of any strong economic 
area.
    So I think that we can't focus on just one thing, we have 
to focus on multiple issues, when you're looking at an area, 
particularly from an economic standpoint, if the site has 
strong economic potential, then that means that the surrounding 
sites around it have the same type of potential, as well.
    So it's the big picture that we have to try and see when we 
are drafting legislation to help get past this brownfield 
remediation issue. So I've become a big fan of the site 
assessment program, that's yielding big benefits for us.
    Mr. Turner. Ms. McCarthy, Connecticut has a tax credit 
program--we are going to let both mayors to exit. I appreciate 
your time.
    Mr. Lauretti. I have a little bit more time. I can stay.
    Mr. Turner. Thank you.
    The taxpayer program, you mentioned this, bill 4480, which 
is the brownfields bill that is proposed. In that tax credit 
bill, we have a requirement that for taxpayers to be eligible 
for the tax credit, they must go through the voluntary action 
program. Is there such a requirement under Connecticut's tax 
credit program? And how does the Department of Economic 
Development work in conjunction with you on making certain that 
the extent of the cleanup and the remediation works?
    Ms. McCarthy. Again, our hope is that we could look at the 
language of the legislation, make sure that it recognizes the 
full range of cleanups that are ongoing--both at the Federal 
and State level--because we have something in our system. We 
allow both publicly funded cleanups as well as private cleanups 
that are overseen by licensed environmental professionals. So 
it's not completely clear to us that the bill as it's currently 
crafted would allow a tax credit to the full range of cleanup 
activities that are being done on properties in Connecticut.
    So that's one of the things that we would like to make sure 
that it happens, because we do believe that tax credits are a 
terrific opportunity to bring the brownfields redevelopment to 
happen.
    Mr. Turner. My question is the Connecticut Tax Credit 
Program.
    Ms. McCarthy. Oh, I'm sorry.
    Mr. Turner. I was asking how is your experience in the 
coordination between the Department of Economic Community 
Development and its tax credit program and your voluntary 
action program.
    Ms. McCarthy. My apologies.
    Actually, we have a very good team that meets on our 
brownfield development efforts. I would say that the 
coordination is very good. Part of the challenge that we face, 
I think, is that it's often reactionary.
    If someone comes into the system and wants to clean up a 
brownfield, it's an opportunity for us to get together and 
marry the various tools, including tax increment financing, 
which I think holds a lot of promise for urban brownfields 
redevelopment.
    And I guess the problem that we have is that there are many 
sites out there that just are not on the radar screen, for a 
variety of reasons. And we have not put together a proactive 
team that would be working with local communities to try to key 
those up for redevelopment opportunity.
    That's the next discussion for us.
    Mr. Shays. Can I ask you a question for a second?
    Just talking about the proactive team--is the success or 
failure basically dependent on the approach of the communities, 
the mayors who run them? Are some towns really quite aggressive 
and doing particularly well, and others just simply are not 
aware of what they could be doing?
    Ms. McCarthy. I think that it's fair to say that's one of 
the factors.
    There are some Mayors, obviously, some that are with us 
today, that are very aggressive and understanding all of the 
benefits that are out there that they can take advantage of. 
But there are others that are not.
    But when you're looking at brownfields redevelopment in an 
urban area, there are two things that need to be done. One is 
you have to keep the obstacles, or the costs, to develop any 
open spaces very high.
    In an area like this, every piece of property is very 
valuable, and you're trying to drive development in the urban 
areas. So if you're zoning, and if you're conservation 
development plans in this community are strong, you will take 
some of the open spaces off the list of development.
    And the second thing you need to do is really work hard to 
make it attractive to develop in the urban areas. And I think 
you need to understand, and I'm sure we all do, that's not just 
about the contamination issue, you know.
    A city--there are many cities that do very well in 
brownfields redevelopment. They address the security issues, 
the lighting issues, the transportation issues, the transit 
issues, the education issues, because it's all about whether or 
not that site is marketable, what is its economic potential. 
Then the brownfields--the contamination area--is manageable and 
you can put together the right tools to make that happen.
    But I think you're absolutely right when you raise the 
issue that many of the crew is gone, and we are at the next 
level of development where we really need to put our heads 
together, because it's not clear that they have the kind of 
economic strength they need to get over the contamination part 
without additional incentives from the public sector.
    Mr. Shays. One of the points, you're really suggesting that 
from the EPA standpoint, there is really two benefits here.
    One benefit is cleaning up a dirty site. The other one is a 
policy that I think is inherent to both the State and Federal 
Government, and that is that we are looking to see the 
development back in our urban areas, so we are not continuing 
to sprawl, make things work better, and so on.
    Mr. Lauretti. If I may, I'd just like to expand on the 
Commissioner's point. I think it's a good one, because we've 
been able to do that in our community by leveraging the CDBG 
block grants program that you have to do public infrastructure 
improvements, which eventually foster economic development. You 
send a signal to private development that, you know, you've 
made a commitment, and that certain things are going to happen, 
and that's why it's important for government to be the 
catalyst. I really believe that this is the role that we need 
to play.
    So while there may be an indirect approach, it still gives 
you the same net result.
    Mr. Shays. Thank you for that.
    I would like the EPA to just respond to the added incentive 
of wanting to get people back into urban areas.
    Is that a policy that is intuitive on the part of both the 
Environmental Protection Department, or agencies, or am I 
thinking it should be, but it isn't part of the policy?
    Ms. Sanderson. We have a very active, strong program that 
is growing. We are doing more and more as we have more success.
    A key partner for us is our smart growth office, and the 
investment in the resources that they also have. We have to 
really take a hard look at those development opportunities.
    So that has been more mainstream for us.
    Mr. Shays. So is that a ``yes.''
    Ms. Sanderson. Yes.
    Ms. McCarthy. Yes.
    Mr. Shays. Thank you.
    Mr. Turner. Ms. Sanderson, concerning Connecticut's 
Department of Environmental Protection programs, under the 
voluntary mediation program, I have two questions for you.
    One, it says that the responsible parties may not be a 
party to the covenant not to sue.
    And I'm not certain that is unique in Connecticut, or is 
that something that you see region-wide?
    The second thing is that Pennsylvania has just entered into 
an agreement with EPA. What is your experience in looking to 
providing States with a broader program?
    Ms. Sanderson. It does vary. I'm familiar with the program 
in Massachusetts. They have a program that----
    Mr. Turner. It varies.
    Ms. Sanderson. I believe that is very much driven by State 
law.
    Mr. Turner. Concerning the responsible parties.
    Ms. Sanderson. Yes.
    I'm sorry, your second question was?
    Yes, Pennsylvania, exactly.
    We do not have formal memorandums of agreements with our 
States. What we have, and what we found has worked in New 
England so far--and we are always looking for new ideas--is we 
have cooperative agreements with our States that have the 
conditions of what they use their funding for, and how they 
work together. That has worked for us well here in New England.
    We have the advantage of proximity, and being familiar with 
each other from other programs. So we do depend very heavily 
upon our State voluntary cleanup programs, and that is a term 
and condition of our cleanup grants. We feel so secure in our 
State cleanup programs, we actually defer that piece to them as 
a condition of those cleanup grants.
    Mr. Turner. Ms. McCarthy.
    Ms. McCarthy. I actually worked in Massachusetts before 
Connecticut. Both of them are the same.
    Mr. Turner. What about grants.
    Ms. McCarthy. We actually have an agreement with EPA Region 
1 on our corrective actionsites, where we work in alignment 
with one another, in which we coordinate the cleanup of those 
sites. It's a fairly new program, but so far, it seems to be 
working very well.
    It's very clear that the regulated community appreciates 
the fact that we are trying to standardize from the cleanup 
levels and the process to get there, and our reviews, so that 
it's conducted in a timely way.
    I raised the issue of certainty before as being critical. 
This increases the certainty, so that if you're expending 
funds, you're getting to a finish line that is recognized at 
both the Federal and State levels.
    The more we can coordinate that, the better off we're going 
to be.
    Mr. Shays. I would like to know the best thing about this 
program and the worst.
    Ms. McCarthy. Start with me.
    Mr. Shays. Yes.
    Ms. McCarthy. The best thing about the brownfields program 
is I think it's gotten a lot of visibility at the Federal 
level.
    The cleanup of brownfields, to me, is absolutely vital if 
you're going to maintain urban areas that people want to live 
in. You're going to be able to protect the open spaces, and the 
farmlands that we all want to protect. I think it's absolutely 
vital for quality of life that we move forward on this.
    I believe the money toward assessments has been very 
valuable. I totally agree that brownfields inventories is 
probably one of the weak links, is that it would be great to 
have a much better understanding, so that you actually have 
sites up there that developers can come and choose from and 
understand.
    Mr. Shays. I'm going to come back to that.
    So the worst is the inventories?
    Ms. McCarthy. And the simple fact that we have this many 
sites, and so few staff to oversee them in moving forward, is a 
significant problem.
    We have to generate that kind of enthusiasm in the private 
sector. We have to expand our ability to oversee these sites.
    Mr. Shays. I want to know the best and the worst from your 
understanding.
    Then I want to come back to what that tells us.
    Ms. Sanderson. I would say the best is it forges 
partnerships, and it is not top down. It really tries to 
provide grant funding to communities without dictates and 
allows regional solutions, which is somewhat different from 
other programs.
    Mr. Shays. And worst.
    Ms. Sanderson. The Federal process of getting Federal 
funding can be cumbersome, and we have tried to chip away at 
that process, and we can probably continue to do more.
    Mr. Shays. I'm going to just come back and react to what 
you said, but I'd like the mayor to respond.
    Mr. Lauretti. The best is the final remediation of the site 
and the worst is getting there.
    Mr. Shays. That's really helpful.
    Staff of Bridgeport had a huge benefit in that there were 
some sites that nobody wanted to touch, and just having an 
assessment, the developers, the owners of the property, in some 
cases, realized that it wasn't as heavy lifting as they 
thought. So I felt like the assessment was, we got a big 
payback in some cases, because some properties started to move 
just by the assessment, and nothing else.
    So what I'm wrestling with is whatever dollars you have, it 
is better to do more assessments of more properties, given that 
logic; or now that we've identified so many sites, is the 
problem that we've identified, thanks a lot, but we need help 
in cleaning it up?
    Maybe you can respond to that.
    Mr. Lauretti. I think a little common sense needs to be 
employed with respect to that.
    Site assessments are essential and necessary in 
understanding the nature and the cost associated with the 
nature of the remediation. And the ones that make sense, you 
should absolutely do.
    Ms. McCarthy. I think, given the age of some of these 
programs, the assessment has been very useful, but right now we 
have to go to cleanup.
    Mr. Shays. OK, but what you said, though, is that the 
inventory isn't there, which tells me that the assessment 
hasn't been as good as I thought it was.
    Ms. McCarthy. I think the assessments have been done, but 
we haven't found a great way of developing a list and getting 
that available.
    Mr. Shays. It's not that the assessments haven't been done.
    Ms. McCarthy. Many have been done. We don't do a great job 
in organizing those.
    Mr. Shays. Who should be doing that, the State or the 
Federal Government?
    Ms. McCarthy. I think it's done at different levels but it 
would be very useful if we could coordinate it.
    Mr. Shays. If this committee were to make a 
recommendation--that's one of the things that this committee 
does, it basically attempts to determine what the problem is, 
and what are the solutions recommended to a variety of 
municipalities--so who should be doing that coordination?
    Ms. McCarthy. Well, if you're offering the Federal 
Government, it would be a great place to coordinate that 
activity.
    Mr. Shays. It mandates the States or local governments.
    Ms. McCarthy. Well, I know EPA has given grants to have 
this happen at the local level, and I know they've tried to 
spur the State to get involved in these activities. We agreed 
that it needs to be done.
    Mr. Shays. It needs the coordination.
    Ms. Sanderson.
    Ms. Sanderson. We have seen many more applications for 
cleanup grants and for revolving loan grants. So one thought 
would be looking at some of the fixtures made to the loan 
program, and to reward successful grantees who have gotten 
revolving loan grants. You made a loan, you certainly have the 
opportunity ahead of you to have supplemental funding for the 
application process, and reward high performance.
    Mr. Shays. I just want to thank our witnesses for your 
comments. I appreciate it a lot. It's great to have you here.
    I appreciate you coming from Boston and Hartford.
    Mr. Turner. I thank all of you for participating, for your 
insights today.
    I want to give you one last opportunity, if something 
occurred that you want to respond to. We are finished with our 
questioning, if you have some statement that you want to make, 
this is your opportunity.
    Ms. McCarthy. Could I just make one final pitch for the 
bill, actually, that is proposing to look at this in a 
comprehensive way?
    I'm serious. The world doesn't dissect things the way 
Government does. To go into a brownfields site and say the only 
thing we can deal with is the hazardous waste component, but we 
can't deal with the demolition, of the asbestos, of the lead, 
of the pesticides--that's not how the real life works. So if we 
could really look at this as a more comprehensive approach, it 
really makes ultimate sense I think to all of us, even us 
bureaucrats.
    Mr. Turner. Thank you for that.
    Anything else? If not, we will turn to our second panel.
    Our second panel includes Elizabeth Barton, Joseph Carbone, 
Robert Santy, Stephen Soler, and Barry Trilling.
    We are now on our second panel of witnesses.
    Before you begin your prepared remarks, the red lights 
indicates your time has expired, the yellow light indicates 
when you have 1 minute left to conclude your remarks.
    It is the policy of this committee that all witnesses be 
sworn in before they testify.
    Will you please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Let the record show that all witnesses have 
responded in the affirmative.
    We will begin with Ms. Barton, partner of Day, Berry & 
Howard. Ms. Barton.

 STATEMENT OF ELIZABETH BARTON, CHAIR, ENVIRONMENTAL AND LAND 
            USE DEPARTMENT, DAY, BERRY & HOWARD, LLP

    Ms. Barton. Thank you.
    Mr. Chairman, Congressman Shays, members of the 
subcommittee, I thank you for the opportunity to appear before 
you today on the topic of brownfields redevelopment in 
Connecticut and the new England region.
    My name is Elizabeth Barton. I am a partner with Day, Berry 
& Howard, Connecticut's largest law firm.
    In addition to our five Connecticut offices, Day, Berry & 
Howard has offices in New York City and Boston.
    I chair the Environmental and Land Use Development at Day, 
Berry & Howard and have been practicing in the environmental 
and land use area for over 20 years.
    I am resident in Day, Berry & Howard's Hartford office.
    I am presently the Secretary of the Connecticut Chapter of 
the National Brownfield Association, a member of the National 
Brownfield Association's Advisory Board, and a Co-Chair of the 
Government Affairs Task Force of the Connecticut Business and 
Industry Association's Environmental Policies Council. I have 
been a member of the Board of Directors of the New England 
Council and also the International Council of Shopping Centers 
for many years. My experience in the brownfield arena is as 
counsel to the universe of stakeholders, including owners, 
developers, lenders, and governmental entities.
    I have been extremely fortunate in that my experiences in 
the brownfields arena span the full spectrum, from the very 
large urban properties--specifically, to Brass Mills Shopping 
Center Mall, in Waterbury, CT--to the small parcels being 
developed by nonprofit organizations.
    I also am working on a true public-private partnership with 
the Fairfield Metro Center, in Fairfield.
    Brownfields redevelopment, as I think many of the people 
have spoken to it today, have acknowledged is a win-win for all 
State owners.
    I applaud the efforts of this subcommittee. The emphasis 
today is on job creation, job retention, both of which directly 
rely on economic health and more progress.
    I would like to touch on several points. It is real estate 
development, with unique challenges, that carry additional 
budget line items. Brownfield projects are real estate 
projects. There is a need to make it economically viable to 
pursue the brownfield redevelopment completion. There are 
direct economic incentives such as grants, loans, and tax 
credits, but also, the lack of predictability translate into 
additional project costs.
    These are three significant impediments, the lack of 
coordination, the continuing liability, and the lack of 
finality to the plan.
    A second point, unfortunately, for all of us trying to 
address these issues, it is not a one size fits all situation. 
A specific brownfields property where it might cost more for 
remediation than the value--some might benefit most from either 
tax credit measures such as that provided in H.R. 4480 or 
incentives that encourage and facilitate the assemblage of 
clean and not so clean properties. The latter, however, may 
require greater employment of resources to better address 
concerns about the predictability and finality of the process 
and any residual liability for the owner or developer of the 
site. Development actually requires us to look again into very 
hard public policy. We need to address those.
    We need to get more properties to the market, and we need 
to get more developers interested.
    We need to realize from the Connecticut transfer experience 
that we need a clear and reasonable end point.
    Thank you again for the invitation to be here today, for 
your continued support for the brownfields redevelopment.
    Thank you.
    [The prepared statement of Ms. Barton follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.038
    
    [GRAPHIC] [TIFF OMITTED] T9333.039
    
    [GRAPHIC] [TIFF OMITTED] T9333.040
    
    [GRAPHIC] [TIFF OMITTED] T9333.041
    
    Mr. Turner. Mr. Carbone.

STATEMENT OF JOSEPH CARBONE, PRESIDENT/CEO, THE WORKPLACE, INC.

    Mr. Carbone. Thank you, Mr. Chairman, Congressman Shays.
    I'm Joe Carbone. I am president of the Workplace, Inc. We 
act as the regional work force in southwestern Connecticut. 
From the standpoint of work force development, we cover the 
town of Beacon Falls, CT.
    I get the opportunity here today to not get into kind of 
the fine print of brownfield sites, but sort of a nice 
ancillary kind of a program.
    The Workplace has received two Federal competitive grants, 
and participated in a third one that provides occupational 
skills. It is actually a program that began about 5 years ago. 
We have two completed projects. I have a third project under 
way right now in Stamford, CT.
    As part of my testimony, I have given you information and 
reports really breaking down all the work that has been done in 
the two areas and also work that has been under way so far at 
the Stamford region.
    From the standpoint of jobs--and that is what our business 
is all about--there is a very, very clear distinction between 
both the nature of the jobs that are being marketed in the 
environmental health area in this region and the wages that 
comes with them.
    We are talking very clearly about jobs, jobs that are 
really at the point of a career and can grow as years go on, 
and opportunity for further education that can lead to 
increasingly better real kinds of opportunities, careers for 
people.
    I am here today to say that we are offering our continued 
support for jobs. About $2 million a year has been allocated in 
the bill, and there have been anywhere from 10 to 12 sites each 
year that have been designated to receive it.
    In our region of Connecticut--I just want to give you an 
idea, I just took some numbers here from the completed sites, 
which is the Bridgeport project and the Valley project, and we 
are looking at the cost here of the combined sites, a $400,000 
grant; and they were entered into the program; 103 people 
entered, actually were trained; 19 of them did complete. These 
numbers are much greater than the usual trend in the American 
work force--90 percent completion. And in terms of the number 
of people that entered employment, we are looking at 87 
percent, an average wage of $13.81 per hour.
    It is not just a case of something that can lead to a 
career track. For a very small part of the package, there is a 
great return. These opportunities for training, these are 
people who reside in the designated areas that are brownfields. 
Sometimes it appears to be something negative. By the way, a 
number of them became misplaced, because they worked in 
factories that were vacated and they are picking up an 
opportunity which would result from the cleanup that is going 
on, or has been going on, and will go on in the future.
    In terms of opportunity, it is great; good for our region. 
And I guess the important point that I want to at this point 
leave you with is that most people really didn't recognize the 
opportunities, the field of environmental opportunites that is 
out there. We don't have difficulty taking people from training 
to employment and to employment again in these higher wage kind 
of jobs.
    To the extent that you can either continue or increase 
that, the opportunities are greater. I think we are feeding 
into a sector of the workforce where there is clearly a growing 
need, not just here in our region, but across the State, and 
certainly, across the northeast, as well.
    The last point I want to make here is that as hard as we 
worked in the field of brownfields redevelopment, our job is to 
bring that work with us.
    I would really be remiss in sitting here today if I didn't 
thank you. The gentleman in front of me, seated to your left, 
he has been a great friend of workforce development in 
southwestern Connecticut.
    I have been here at the Workplace now for 10 years, 
actually 10 years as of next week, and I have been engaged in 
an effort to try to build and kind of build our current 
workforce system to not just make it larger, but to service 
more people, to actually service those that are part of our 
system even better.
    [The prepared statement of Mr. Carbone follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.042
    
    [GRAPHIC] [TIFF OMITTED] T9333.043
    
    [GRAPHIC] [TIFF OMITTED] T9333.044
    
    Mr. Shays. I believe in what you are doing.
    Mr. Carbone. And I thank you.
    Mr. Shays. Thank you.

     STATEMENT OF ROBERT SANTY, PRESIDENT, REGIONAL GROWTH 
                          PARTNERSHIP

    Mr. Santy. My name is Robert Santy, and I am president of 
the Regional Growth Partnership [RGP].
    RGP is a non-profit economic development organization 
comprised of public and private sector members in 15 towns in 
south central Connecticut.
    We perform a variety of functions in our region--
Connecticut being one of the two States in the Nation that 
lacks county government. I will come back to that in a few 
minutes. For example, we support transportation initiatives 
such as the expansion of our local airport, increased train 
stations, and infrastructure improvements for our highways.
    Mr. Shays. Do you have a counterpart in the greater 
Bridgeport, Stamford area?
    Mr. Santy. I would say--and BRBC, are similar, but they 
don't have the same economic development functions. Metro 
Hartford Alliance and--are more similar to what we do.
    Mr. Shays. Got you.
    Mr. Santy. We provide a variety of services to our towns. 
In our region, we provide our local economic development 
offices with support ranging from grant writing to networking 
opportunities and we seek ways for our region to work together.
    We are a small State, made up of small communities. Our 
average town size is about 25 square miles. So really, our 
towns need to work together, if they are to achieve the 
economic grout that we need to achieve as a State.
    One example of what we have done for our region is our 
brownfields development program, and of course, on the other 
side of that one is greenspace preservation and smart growth. 
And RGP has been a leader on these issues for several years.
    RGP has been working on brownfield projects for almost 10 
years. We have been the recipient of $1.25 million in grant 
dollars from the State Department of Economic and Community 
Development to conduct site assessments on properties in our 15 
towns.
    To date we've done phase I, II or III assessments on over 
85 sites in our 15 communities, and these investigations have 
assisted municipalities and private property owners to expand, 
purchase, sell or lease their buildings. In every case, the 
project has been stalled due to the lack of funding to complete 
the necessary testing and would not have proceeded were it not 
for our funding.
    In addition to State funding, RGP has been the recipient of 
two Federal EPA grants. In 2000, working in conjunction with 
our council and government, we secured a $200,000 assessment 
grant. And in 2003, RGP was awarded a million dollar revolving 
loan fund. And we are currently working to close our first loan 
under that program in the city of Meriden.
    However, even with our successful track record, it has been 
difficult for our organization to obtain funding. We have a 
great partnership with both EPA and the State DEP, and the 
Department of Economic and Community Development, but actually, 
qualifying for Federal funding has been an issue for us. We had 
to expend a considerable amount of money to pay attorneys to 
work with our Council of Governments, and get an opinion from 
our Attorney General, to argue that we, in fact, qualified as a 
political subdivision in the State, which is the requirement 
under Federal statute.
    In other States, of course, with governments, this would 
not be as big an issue, but there are also issues, I think, in 
other States.
    We hit a similar block recently in talking to the National 
Park Service about Groundwork USA and becoming a groundwork 
trust, which is funded with EPA dollars. And although in other 
States Groundwork USA has worked with the counties and regional 
planning agencies, they have not worked with a regional not-
for-profit organization to perform similar functions.
    We are convinced that a regional entity advocating and 
managing brownfields redevelopment should be eligible for these 
programs and is probably one of the most efficient 
organizations to administer them.
    Our 15 towns clearly have limited resources. You spoke 
earlier about Bridgeport and Shelton taking advantage of these 
programs, other towns that don't. There are certainly towns 
that cannot afford the administrative burden of some of these 
programs, so we hope we address that by doing it on a regional 
basis, and working with our towns.
    I mentioned earlier we are close to closing our first EPA 
revolving loan fund loan in the city of Meriden. The important 
EPA program was considered essential for our region in order to 
have access to the remediation dollars, which, as we know, are 
difficult to identify in brownfield projects.
    The RFL funding was a perfect fit for the Meriden site. 
There were no complicated financial issues, however, the 
process that we had to undergo to get to the point of drawing 
up loan documents has taken us a year-and-a-half. Difficulties 
arose due to a pending lawsuit against a potentially liable 
party, which required detailed opinions from many lawyers 
regarding the Superfund.
    Additional problems arose when we realized much of the 
contamination was petroleum, instead of hazardous waste, and 
our application was for hazardous waste. So we weren't able to 
do the petroleum cleanup because our dollars were dedicated to 
hazardous waste, something Commissioner McCarthy mentioned when 
she said maybe we can broaden some of these definitions.
    Fortunately, these issues have been worked out, but as I 
mentioned, the process has taken us a year-and-a-half, and we 
are just about to close the loan.
    I'd also like to turn for a moment to your bill, Mr. 
Chairman, H.R. 4480, which is co-sponsored by two Connecticut 
Congressman that I am aware of, Congresswoman Nancy Johnson and 
Congressman Shays. And I would just say, in the interest of 
time on that, that again, it is a toolbox that needs to be full 
in order to do the stuff effectively.
    And I would say that most of the low hanging fruit, to use 
a phrase that comes up again and again today, probably has been 
dealt with, and we deal with a lot of smaller sites, with a lot 
more difficult issues. And the more options we have, both on 
assessment remediation and redevelopment, as far as financing 
for those functions, the better off we are. So we would welcome 
new tax credit legislation at the Federal level.
    Thank you for the opportunity.
    And I'd be happy to answer your questions.
    [The prepared statement of Mr. Santy follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.045
    
    [GRAPHIC] [TIFF OMITTED] T9333.046
    
    [GRAPHIC] [TIFF OMITTED] T9333.047
    
    [GRAPHIC] [TIFF OMITTED] T9333.048
    
    Mr. Turner. Mr. Soler.

    STATEMENT OF STEPHEN SOLER, PRESIDENT, GEORGETOWN LAND 
                        DEVELOPMENT CO.

    Mr. Soler. Thank you, Chairman Turner and Congressman 
Shays, for inviting me to testify before this Committee on such 
an important topic.
    For the record, my name is Stephen Soler. I'm president of 
the Georgetown Land Development Co., the owner and developer of 
a 55 acre wire mill in the Georgetown section of Redding, CT, a 
town of about 8,500 people, so it's not a big city. I've been 
in the brownfields business for well over 10 years and have 
developed about 50 properties.
    Our development plan calls for the reuse of this property, 
if you will. They will have about 416 residences, about 350,000 
square feet of commercial space.
    Mr. Shays. How much commercial?
    Mr. Soler. About 350,000 square feet of commercial space.
    It will create 1,500 jobs, 1,500 jobs that have not existed 
there since 1959, which it gets to one of the points the State 
of Connecticut is trying to stimulate job retention, job 
creation.
    The purpose of my testimony today is to talk about the 
process we went through, and how coordinated State and Federal 
resources make complex redevelopment a reality.
    The most important point I could make in this testimony is 
that this process could be replicated and used as a model 
throughout the United States. But first, a little bit of 
history to understand how we got to where we are.
    In 2000, the town of Redding, a town of 8,500 people, wrote 
about $1 million in taxes.
    They watched a large, thriving complex. Under the 
leadership of the first selectman, they knew something had to 
be done, so they enlisted the services of a Connecticut 
architect and planner, Patrick Pinnell, and listened to him on 
what could happen.
    Pinnell suggested that this would possibly become a new 
village. By taking some of those historic buildings and 
integrating it into the existing area, that you could create a 
new town center. But there was a problem. Nobody knew how much 
it was going to cost to clean up the property. There was wild 
speculation, it was $30 million, it was $50 million, and that 
gets to the point about getting assessments done.
    Pinnell advised the town, and we listened to what he had to 
say.
    One of the problems that has faced brownfields, I think 
it's probably the largest problem that's faced brownfields, is 
the fact that secured creditors refuse to take title to these 
properties. You heard from the Mayor that there are a lot of 
properties that they can't take on the liability. Those secure 
creditors include banks and tax holders. There are taxes that 
are past due that are owed to cities and towns. I primarily 
purchased those properties by buying the mortgages and taxes, 
so I kind of knew how to go about doing this.
    In 2002, I made a proposal to the town to repurchase the 
outstanding taxes for about $1 million. And part of our 
agreement with the town was to involve them in the planning 
process, and also to make available to them remediation 
information. We were going to investigate the site, and make 
that information available to the public, so that people knew 
what was going on. And I think that's also a big issue, that 
people have no concept of what's really going on. And when you 
do get that information out there, you sort of break down that 
barrier, what is really going to happen, and what people think 
is going to happen.
    Based on our development plan, the former wire mill, we 
bought those taxes in 2002, September 2002, negotiated the deed 
from the owner, who no longer wanted it, and in March 2003, 
acquired the mortgage from the bank.
    To put that into perspective, the bank put $26 million, and 
to further complicate the problems, it was the Commercial Bank 
of Kuwait, go to the local bank and buy the mortgage.
    We spent the better part of 2003 stabilizing the property 
and completing the environmental investigation. And in October 
2003, we had a planning session which involved the town. We had 
over 1,000 residents attend that Charrette.
    Many of the ideas that came out of the Charrette were given 
to us by local residents and stakeholders.
    Mr. Shays. Just to stop you for a second.
    Mr. Chairman, this was an amazing thing to watch, because 
the developer had a concept, he came forward with a concept, 
invited the whole community to come in, and then was receptive 
to amend, change, adjust, based on good suggestions of the 
residents.
    I have to tell you, it was one of the more impressive 
things that I've seen since I've been in government.
    Mr. Soler. It was a pretty impressive process.
    At any point in time, they didn't know what was going to 
happen at the end of the week.
    There was some consensus that was built as to what could 
happen, and it all started with Pinnell's initial drawings, 
initial ideas.
    Mr. Shays. Let me ask you, you also had different groups of 
people to go to, and they could make a suggestion, and the 
artist, on the spot, would kind of conceptualize and draw, and 
let people know what this would look like, based on their 
suggestions.
    Mr. Soler. It was a very proactive Charrette. We had about 
50 people working for us during the Charrette process.
    So that, as a group that was dealing with the 
transportation issues, they had some concerns that they wanted 
to raise. We had transportation professionals, they were 
transportation planners, engineers. They could actually solve 
and answer that question right then and there.
    What that also did was it took a lot of the problems that 
we normally faced with large scale developers off the table 
because people got the answer to their question right away.
    Mr. Shays. We'll get him back up here later to see it.
    Mr. Soler. The Charrette input, for the record, included 
information from U.S. EPA, Connecticut DEP, local planning and 
zoning officials, historic preservationists, the National Park 
Service, and various departments of Connecticut DOT who were 
working with us on reactivating the train station that was 
closed, and that train station would provide service to Grand 
Central Station.
    The plan, after we had done the Charrette, was presented to 
the town in June 2004, or just about 8 months later, and in 
September 2004, we received unanimous approval with no appeal. 
That's a unique accomplishment for any development that tries 
to go through the process in the State of Connecticut. And we 
expect to break ground on the project next month.
    Because of the process that's on the record, we undertook 
that in 2000, and the results of that process, the U.S. EPA 
awarded the town of Redding the National Award for Smart Growth 
Achievement in the Small Communities categories. And to put 
that in perspective, most of the recipients were from the west, 
with the exception of a project in Orlando, FL.
    In addition, EPA has provided a tremendous amount of 
support, both in brownfields assessments and brownfields 
grants.
    And this past January, the project received a sustainable 
design, design project designation, from the U.S. Treasury, 
which will enable the project to take advantage of tax exempt 
bond financing for the development. And it's only one of four 
projects in the country to receive that recognition.
    Most important, though, it shows that the efforts of EPA to 
promote brownfield development, they're not only taking root in 
the urban areas, but they're also taking root in the suburbs. 
Not all the brownfields exist in the urban core. In fact, many 
brownfields exist in suburban environments. And it's good to 
know that to provide those suburban environments the ability to 
tap the resources that the urban core and that the cities get, 
as well.
    This all begs the question, how do you take our model and 
adapt it to cities and towns where so many brownfields are?
    We believe it can happen with the following factors: One, 
cities and towns need professionals, and they think EPA is 
working hard to provide that resource for them.
    Two, States need to be more proactive, with a regulatory 
framework that streamlines the process. And I believe 
Connecticut, under the direction of Commissioner McCarthy, 
shall become a model for brownfields development.
    And at the Federal level, in addition to existing financial 
tools available to brownfield sites, there needs to be 
brownfields tax credit legislation that's targeted to a very 
specific geographic area. It shouldn't be for every site.
    I think the best method for increasing the capital is for 
Federal policy to reflect the critical importance of 
revitalizing American cities and towns, now impaired by an 
industrial legacy. I think tax credit legislation is arguably 
the best, most straightforward method of creating an equity 
pool to achieve this goal, and is vital to ensuring that this 
becomes a reality in communities who need it, just as it's 
become a reality for the residents of Georgetown.
    Thank you for giving me the opportunity to speak at this 
session. I'll be happy to answer any questions.
    [The prepared statement of Mr. Soler follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.049
    
    [GRAPHIC] [TIFF OMITTED] T9333.050
    
    [GRAPHIC] [TIFF OMITTED] T9333.051
    
    [GRAPHIC] [TIFF OMITTED] T9333.052
    
    Mr. Turner. Mr. Trilling.

   STATEMENT OF BARRY TRILLING, PARTNER, WIGGIN AND DANA, LLP

    Mr. Trilling. Thank you, Mr. Chairman, for inviting us here 
today.
    I'm Barry Trilling. I'm a partner in the Stamford, CT, 
office of Wiggin and Dana. I also chair the Legislation and 
Policy Committee of the Connecticut chapter of the National 
Brownfield Association, and the Government Affairs Committee of 
the local chapter of the National Association of Industrial 
Office Properties, which had the pleasure of hearing Chairman 
Turner speak back in February, about H.R. 4480.
    I work both in Connecticut and elsewhere in the country----
    Mr. Shays. Just lower it down a bit.
    Mr. Trilling. I've had judges tell me that I wear out their 
court reporters. I appreciate the admonition.
    I work in properties all over the country, as well as here 
in Connecticut.
    Success stories about brownfields get a lot of press 
attention. Yet hundreds and, perhaps, thousands of small, 
commercial and real estate projects that would result in 
cleanups in the use of contaminated properties have failed due 
to bureaucratic and international barriers. In addition, we 
seldom hear about the properties not available for cleanup and 
redevelopment, because of the owners' fears of unending 
liability if they allow those properties to come on the market.
    Here are two examples: An idle finishing business in 
Elmhurst was put up for sale. It's a dilapidated property. Site 
remediation costs about $150,000. Prospective buyers show 
interest in this transaction, but remediation and environmental 
insurance costs proved too high. The property thus remains 
unremediated and undeveloped.
    In another instance, a New Haven County building 
construction supply business wants to expand and move its 
operations near its current site. It finds suitable a long-out-
of-use munitions plant, for which it would pay about $1 
million. But potential cleanup and insurance premiums could 
cost more than $300,000, killing the deal.
    Current governmental assistance programs either have too 
many barriers to entering or take too long to use in these 
transactions. What would make these deals work, resulting in 
brownfield revitalization?
    All 50 States have adopted some form of brownfields 
remediation and developed a program, and the Federal Government 
has more than 20 such programs administered by more than half a 
dozen agencies.
    Your committee has already heard how many of these programs 
have been working. All of these programs require enforcement 
agencies to welcome and to nurture private sector cleanup 
efforts. The old command and control micromanagement attitude, 
suspicion and cynicism, just doesn't work.
    Here in Connecticut, for example, the Department of 
Environmental Protection Commissioner Gina McCarthy is working 
to make her agency more ``user friendly,'' and EPA has provided 
resources for brownfields revitalization in every one of its 
regions.
    Mr. Chairman, Representative Shays, my remarks--my written 
remarks--describe both Federal and Connecticut grants and loans 
for site assessment for remediation and redevelopment. 
Government funding programs, however, often create bureaucratic 
mazes that real estate developers would just rather avoid.
    These programs also depend largely on the government, 
rather than private sector initiatives, and political pressures 
which may outweigh the projects' own merits. And State 
agencies, with overlapping mandates, frequently don't work well 
with other further deterrents to revitalization.
    Connecticut, with the creation of the Nutmeg Coalition, has 
begun to confront these issues, and our General Assembly has 
also begun to create a one-stop shop for brownfields 
remediation and development. Still, smaller brownfields sites, 
with low levels of contamination, such as I have described, 
have difficulty in obtaining insurance. The premiums on smaller 
cleanups are disproportionately large and frequently 
unaffordable, in the context of a project.
    Further, we need reforms, both Federal and State liability 
schemes, to encourage the original responsible parties to 
participate in revitalization and to encourage them to make 
their brownfield sites available for restoration. Under 
Pennsylvania's Act 2, for example, any party that contributes 
to any extent to cleanup, meeting State standards, receives 
protection from liability under State statutes, even the PRP's, 
and they are coming to the table for remediation of sites.
    Legislation such as H.R. 4480 is a good step. It has tax 
credits for up to 50 percent for demolition and environmental 
remediation. It would be even stronger if its credits also 
applied to insurance costs. Other, more traditional forms of 
financing cannot match direct tax credits.
    Further, legislation would also result in more properties 
for development, and encourage the current owners to 
participate in site assessment, cleanup, and the redevelopment 
process.
    If owner liability relief were available, who knows what 
additional sites my clients may have been able to revitalize.
    Thank you, and I appreciate the time.
    [The prepared statement of Mr. Trilling follows:]

    [GRAPHIC] [TIFF OMITTED] T9333.053
    
    [GRAPHIC] [TIFF OMITTED] T9333.054
    
    [GRAPHIC] [TIFF OMITTED] T9333.055
    
    [GRAPHIC] [TIFF OMITTED] T9333.056
    
    [GRAPHIC] [TIFF OMITTED] T9333.057
    
    [GRAPHIC] [TIFF OMITTED] T9333.058
    
    [GRAPHIC] [TIFF OMITTED] T9333.059
    
    [GRAPHIC] [TIFF OMITTED] T9333.060
    
    Mr. Turner. Thank you.
    The type of training in the area of brownfields, both 
assessment and remediation, has to be very technical. I was 
wondering how the costs for people were dealt with, with 
respect to this or other types of training that might be 
provided.
    Mr. Carbone. In this case, I would say it's probably a bit 
more expensive, probably somewhere between $4,000 and $5,000 
per person, but that's inclusive of the administrative charge 
along with that. But in terms of outcome--it's what's important 
here--you're looking at $14 an hour, which is really wages that 
would start at that, but a real potential is still much higher. 
And if continued education took place, opportunity into other 
areas of environmental health, that would even bring it a lot 
higher than that. It's really a small amount of money for a 
person to be a starter of this.
    And also the fact that there is not much question as to 
training as to whether or not employment is there. As I 
mentioned before, it did open our eyes to the very rich vein of 
opportunities that I think many of the parties who work for our 
system have neglected to really see it there. But it's there, 
meaning we are talking about environmental health. It's a much 
broader field than some of the fields that we're talking about 
here today, including like inspection of restaurants. That's 
all part of environmental health. So once you kind of get your 
foot in the door, it opens opportunities into the field.
    But in terms of how it compares to other training, it might 
be a bit more expensive. But again, it's meeting the jobs for 
the wages that we're talking about.
    Mr. Turner. Each of you have not had the benefit of each 
other's testimony as you were preparing to testify. And, Mr. 
Carbone, you were probably not aware, in the written testimony 
that an issue that was raised was the availability of personnel 
to conduct assessments, and to conduct environmental 
remediation, both from the standpoint of the expertise, but 
also from the standpoint of lowering the overall costs and 
increasing competition. So I'm certain that your efforts not 
only provide the economic ability for the people who have 
participated but also have an impact on what is needed in 
providing the expertise for each of these groups to be able to 
accomplish what is necessary.
    Mr. Carbone. Yes.
    It might also serve to increase the number of training 
providers in the field. And there are not many at this point in 
Connecticut that can do that well.
    But I think we are beginning to see the undercurrent of 
some economic activity, where for-profit operators see the 
potential here. And that will begin to drive down the per unit 
cost. It always works that way. I think we can all be positive 
to see that these for-profit operators will recognize this 
opportunity here. And I think we will see that happen by the 
next round of actual training that takes place here.
    Mr. Turner. Mr. Trilling, as another example of ``great 
minds think alike,'' your comment to me about including the 
costs of environmental assurances was not the only one I had 
received on the bill last time. And as a result of the number 
of people like yourself who are practitioners and have had 
experience with that, the bill does include a qualified 
remediation expense for financial assurances, including 
insurance.
    Mr. Trilling. I second what everybody said about 
demolition, and costs, as well.
    The insurance ambition in the last 2 to 3 years 
particularly has become acute, and I commend you for looking at 
it.
    Mr. Turner. You being, again, a practitioner, what we are 
greater aware of is the extent to which the insurance products 
are playing a role in encouraging lenders to become comfortable 
when coming to the table, so that's a capital issue for the 
redevelopment project itself, after remediation is complete.
    Mr. Trilling. The lenders are concerned not so much about 
their own liability anymore. There is State legislation to 
protect them. But they are always concerned about the security 
of the collateral and the ability of the borrower to pay. 
Insurance product provides that assurance. That bolsters the 
lenders' ability to provide their share of the money.
    Mr. Turner. To the attorneys, I'm very interested in the 
issue, looking at Connecticut's not to sue provisions, 
including responsible parties as a prospect to that process. I 
wonder if you will, if you could speak about incentives that 
you believe that we should be undertaking at the Federal and 
State level.
    And there's one last thing, and that is it is my belief--
and I would like your thoughts on this--that those properties 
that are the worst, that have the worst contamination, are 
probably not undertaking the assessment process because of the 
owners' desire not to know, and not to have others know, the 
contamination that needs to be remedied.
    So if you would speak about incentives to bringing the 
responsible parties to the table in this process, do you think 
it might work. And the second aspect, how the assessment 
process impacts those properties that are the worst; the 
disincentive for people to come to the table.
    Mr. Trilling. I've only been here 3 years.
    The first thing I would look at is the Brownfields 
Revitalization Law of 2002, which, in one provision, restricts 
EPA enforcement actions, sites that have been cleaned up 
pursuant to State programs. So if the State program provides 
liability relief for the PRP, for the owner, then that's going 
to encourage more insights into the program. Regrettably, here 
in Connecticut, we still don't have that recognition.
    At the very least, States should encourage the owners to 
come forward, participate in assessments, and evaluations. 
There is no cookie cutter. Every State has its own problems. 
But I think we need to be creative in trying to address this to 
bring these properties to the table.
    Mr. Turner. In Pennsylvania, are PRP's eligible for relief?
    Mr. Trilling. Yes, they are. Act 2 applies. Act 2 is the 
remediation standard statute, essentially, and it applies to 
all cleanup programs, whether voluntary or involuntary. And 
anyone participating in that program can get relief, including 
if an owner voluntarily comes to the table and meets the 
standard.
    The Pennsylvania attitude was--clean is clean and I don't 
care who's involved. If you clean it up, it's done.
    Mr. Turner. Ms. Barton, I'll wait for you to get your 
microphone, and I'll restate your questions: The first one, of 
course, being the issue of incentives to bring the task 
polluter to the table, and the second being the assessment 
process, is there a disincentive for the worst properties?
    Ms. Barton. I think that there definitely is a 
disincentive. And I'm not sure if it's necessarily for the 
worst property.
    Often the properties with respect to the issue, the owner 
doesn't quite know what to do. And then the fear of stepping 
into traffic without knowing what might be the final phases in 
response to what was found.
    But they're going to want help, basically, without any sort 
of strings attached, should they find a circumstance--a real 
estate development project makes it not worthwhile. And then 
you have the property owner saying, ``What do I do now? I now 
have this information about my site.'' So I think it is a 
disincentive.
    I do think, by the way, some of the recent developments 
will, hopefully, be of some assistance in that regard in 
dealing with contingent liability. And I think it's getting 
some of the larger companies, in particular, to step back, and 
perhaps reexamine whether an approach of putting an incentive 
that is no longer used is the best thing to do. So we still 
need more incentives.
    Mr. Turner. Could you comment on Connecticut's tax credits 
program and the bond termination program. I'm going to tell you 
again why I'm asking it, and hope I don't confuse you.
    In the first draft of the Federal Tax Credit Program that I 
proposed, one of the criticisms that we received of it was that 
the taxpayers were awarded by a State development agency, 
because the focus was on redevelopment, but the remediation was 
coordinated by the State EPA. And those who were involved in 
EPA remediation programs wanted to make sure that there was a 
lane.
    So what we did was, we required the State development 
agency that still evaluates the projects for award, that a 
project must be part of the voluntary action program in order 
to be able to get the tax credits, thereby making it at least 
coordination, if not cooperation.
    How is it working here? And what have we learned from it?
    Ms. Barton. I don't think there really is that linkage. In 
making that statement, I'm not conveying criticism. I just 
think they're separate programs. I think they are programs that 
are not into it anymore.
    The economic development program, the programs involved, I 
don't think we truly have an incentive program, like the tax 
credit program.
    But while the programs that the economic development 
agencies are responsible for will make reference to and rely 
upon an outcome of a program, and require it to be in 
compliance with DEC, we do not have in Connecticut the sort of 
voluntary action programs, remediation programs that I and 
Barry have said they have in many other States.
    We do have what, to a large degree, functions as our 
program, clearly not voluntary--the transfer program that 
Commissioner McCarthy referenced. And that program was very, 
very effective, and it works really well, I think primarily 
because it has limited public sector involvement.
    The public sector dictates the filing, dictates as 
Commissioner McCarthy says. They have to look at the 
properties. And there is a process that you have to go through. 
It's largely between the buyer and the seller.
    While there is a statute, two statutes, actually, that 
refer to voluntary remediation, the reality is, those are not 
statutes that are used anywhere to the degree that is used in 
other States where there are very well-developed voluntary 
remediation programs. There is a bit of a disconnect.
    We have the building blocks, but through these people that 
Barry referenced, the agency coming together and having a 
coalition, and proposing legislation, and we still have work to 
do.
    Mr. Turner. Thank you.
    Mr. Santy. Could I make a comment?
    I just want to comment that was not a tax credit program. 
The State has an urban remedial action grant program that's 
administered jointly by the Department of Economic and 
Community Development, partnered with Environmental Protection. 
And before a grant is made under that program, both of those 
departments need to agree to move forward. So you might want to 
take a look at that statute as an example.
    Mr. Shays. Thank you.
    I would like you to assess, it seems to me that we have 
seen some very real progress under the brownfields programs. 
But is it a success because there is just a lot of low-hanging 
fruit, or has it been a success because the Government has 
provided noticeable incentives?
    The difference between whether a property is developed or 
not is obviously what kind of attorney you've got. Does a 
little bit of action make a big difference in return? Or my 
assumption is that if brownfields were a mystery, we didn't 
know how many we had, the particular type, or what its 
liability was, and so really we were able to then take the easy 
ones, and now we've got a lot of more difficult ones on the 
books. Help me understand the environment.
    Can I start with you?
    Ms. Barton. Sure.
    I think, unfortunately, it gets back to circumstances with 
reference to the tool box. The tools that are needed are not 
the same.
    I think in some instances money does play a key role, and 
it's critical, makes a difference whether or not the project 
goes forward. But truly, if you look at some of the success 
stories--and I think you're right, we've had some very, very 
good success stories in our State--but if you look at the 
success stories, and Steve said, what the end needs to work is 
everyone is on board with respect to the project.
    Mr. Shays. If everyone is on board, or that it's easier to 
do a brownfields cleanup in Stamford, CT, versus Bridgeport, 
because the property is worth more, the return--you're going to 
get a better rent, so to speak--return on investment, the site 
that Mr. Soler has is an awesome site and it's around 
tremendous wealth. And I'm wondering, if that's the case, or--
--
    Ms. Barton. Well, I think it depends. The reality is that 
there are some properties that are not going to be developed, 
no matter what you do.
    Mr. Shays. Right.
    Ms. Barton. Yes.
    Mr. Shays. And would they tend to be closer to a Superfund 
site?
    The site's location maybe not being as economical?
    Would it be basically that the cleanup is more intense, and 
the liability greater?
    Ms. Barton. I don't think it's so much the cleanup, quite 
candidly. I believe its time has not come yet in terms of the 
economic viability, the particular location.
    But the reality is if you have a cleanup scenario, while it 
may be more challenging in getting the incentive to work, the 
reality is that with money, and commitment, and resources, you 
can address it. Beyond that, I think that it is definitely 
going to be beneficial from the perspective of the investment 
needs. But not all projects require the money. For other 
projects, it's just a need to get everybody going in the same 
direction.
    Mr. Shays. That last response to me is encouraging because 
that's doable.
    Ms. Barton. Absolutely, absolutely.
    Mr. Shays. It's doable within even the financial restraints 
we have.
    Let me ask Mr. Carbone to respond. I'm assuming, Joe, that 
you have an opinion.
    Mr. Carbone. No.
    Mr. Shays. He's been involved in so many good things.
    You also speak as a former Deputy Commissioner of the 
Connecticut Department of Economic Development, so this is 
right up your alley.
    Mr. Santy. And brownfield redevelopment is about 
development, there's no question about it. I don't think there 
is any doubt that we're all alone and continuing here. Some 
projects were easier, and they're getting tough. Both the size 
of the project--more the size of the project than the types of 
remediation that are necessary. But there were none that were 
easy.
    And I think I go back to Joe's comment, that all of these 
are really development projects. They all require a return.
    As to your point about Stamford or Bridgeport, harkening 
back to the days when I was with the State, there were multiple 
properties there. All of them had environmental issues on them, 
and yet, clearly, that was the deal that was going to go in 
Stamford.
    Mr. Shays. Ultimately UBF.
    Mr. Santy. Ultimately the UBFs, yes.
    So I do think location makes a big difference, but, more 
importantly, people in Connecticut are very concerned about the 
way the State is growing. And I think we have an opportunity, 
to follow on Elizabeth's comment, to talk about brownfields and 
land preservation, because they are only sides of the same 
coin. And if we put $1 into protected land, which our suburban 
communities and our rural communities more and more do, why 
shouldn't we put a dollar into brownfields redevelopment and 
get that investment back in our cities at the same time?
    And that's one way of getting the public to understand why 
you do this.
    Mr. Shays. I'm going to put it in my own words--a 
developer, if he is going to develop half a million dollars of 
square foot of commercial office, better he do it in an urban 
area.
    So your point, and I'm hearing, you're saying to me, that 
in spending money for brownfields, in a sense, indirectly 
you've almost put up money to preserve open space.
    Mr. Santy. Correct. Getting the public to understand that's 
critical. They don't necessarily see the connection, but they 
don't like what's occurring in their urban communities. So 
that's one way.
    Mr. Shays. I believe in my suburban areas, when I'm helping 
in Bridgeport, Stamford and Norwalk, and obviously, a site like 
Soler has, which is already there, is already a part of an old 
community, that's contaminated.
    Mr. Soler, maybe you can respond as well.
    Mr. Soler. My comment really would be geared more toward 
higher leverage of the dollars and what happens when you 
leverage the dollars and it's put into perspective.
    The first Federal agency that jumped on board was the EPA 
and they provided us with a site assessment.
    Mr. Shays. You're talking about your site here.
    Mr. Soler. At our site in Georgetown. Because the EPA came 
to the table, that allowed all the other Federal agencies to 
come to the table. They like to work with each other. EPA tends 
to be the first one.
    I figured you were going to ask this question, so I wrote 
down some of the agencies that we're dealing with to put this 
in perspective.
    We received a targeted brownfield assessment from EPA, a 
cleanup frame from EPA; obviously, in the town of Redding, a 
$72 million allocation of tax exempt bonds from the U.S. 
Treasury; $550,000 of CDBG funds to demolish the property; $5 
million from the U.S. Department of Agriculture to build a 
wastewater treatment facility because Redding is a rural 
community; we will probably get about $3 million of tax credits 
using the Historic Tax Credit Program through the National 
Parks Department of the Interior; and $3 million in tax credits 
from the Department of Energy, primarily through different 
energy efficiencies that we're going to use.
    Mr. Shays. Did you know that in the beginning?
    Mr. Soler. Yes.
    Mr. Shays. When you started out, you anticipated, to make 
this project succeed, you'd have to do all of this?
    Mr. Soler. Yes.
    We knew that if we started with the EPA--and that's 
leveraging the dollars--that people could really put on paper 
like this, that $100,000 targeted brownfields assessment got us 
to where we are, and all these other programs, because every 
other Federal agency came to the table.
    Mr. Shays. Now, you live in the area of the sites, correct?
    Mr. Soler. I live in Cos Cob.
    Mr. Shays. But the bottom line is you develop all over the 
country.
    Mr. Soler. I develop property from Miami to Boston, yes.
    Mr. Shays. Mostly----
    Mr. Soler. Brownfield sites, that's all I do. And mostly, 
they've been small. I have a working knowledge of small sites.
    Mr. Shays. I don't call this one small.
    Mr. Soler. This is not a small site. This is a once-in-a-
lifetime opportunity. But that should speak to how you leverage 
dollars.
    But more important than that, when EPA makes an investment, 
sometimes you don't see the real impact of that investment.
    When EPA made the investment on a targeted assessment for 
the Jenkins Bell property, look what happened. People now 
started to quantify the risk and they could start seeing the 
light.
    Mr. Shays. What I'm hearing you say is that having the 
Department of Environmental Protection get involved as a 
promoter, in a sense, of the project, it's a message to people 
around you that what is viewed as the most difficult part, you 
have that agency at the table.
    Mr. Soler. Yes. Having EPA at the table, at the same time. 
This happened during our Charrette. We had Connecticut DEP at 
the table. People realized that those two agencies were there, 
talking in unison, saying this can happen.
    The thing of Beth's comment--to bring all those 
stakeholders, those various groups together, is important, 
because at the end of the day, it's a real estate transaction, 
and it has to have an intrinsic value. Otherwise, no one is 
going to do it.
    But there are properties that are going to get built. There 
are properties that are marginal, that with the right 
incentives, with using some of these tools that are out there, 
they can get done. But it's not easy.
    Mr. Turner. Thank you.
    Mr. Shays. Mr. Trilling, before you answer the question I 
asked, is Mr. Soler more unusual, or are there a lot of folks 
like him that have over 10 years in development this expertise.
    Mr. Trilling. There are a number of prominent brownfields 
developers who specialize in these properties and Mr. Soler is 
probably the best of those. The way he works with communities, 
the way he works with government, the way he integrates, he has 
this whole holistic approach to development. It really shows 
the best creative side of the private sector.
    Mr. Shays. My purpose for asking, though, is if you don't 
have that expertise, you have some disadvantages.
    Mr. Trilling. You've got problems if you don't.
    And I'd like to speak to the unsexy problems.
    Atlantic station, in Atlanta, another sexy project.
    Here in Connecticut----
    Mr. Shays. It's good where we introduce sex into our 
hearings.
    Mr. Trilling. I'm trying to avoid getting myself in real 
trouble.
    Ms. Barton. You're dead.
    Mr. Trilling. The projects I'm talking about, they're not 
sexy. I'm talking about getting developers to promise--the 
Steve Solers in this world who don't specialize in brownfield, 
or don't have that expertise, who right now do as Bob Santy 
mentioned he has to do in order to get grants, hire extensive 
experts and lawyers--you know, I'm trying to talk myself out of 
a job here--but right now, the process is too expensive, it's 
too complex, it's too sophisticated.
    What you do by things like H.R. 4480, which provides simple 
tax credits if you meet certain standards, allows the mom and 
pop developer to go out and start becoming a part of this 
process.
    As Beth has pointed out, as Bob has pointed out, 
brownfields properties are a subset of real estate development; 
and the private sector knows how to deal with real estate 
development.
    Allow that creativity of a mom and pop developer to go out, 
find a property, use their own money to clean it up. You're 
going to have a turnaround in cities like Bridgeport, and 
Milford, and Shelton, and all the other towns that don't have 
perhaps a huge tax base that these other sites do that attract 
these projects. It's the making this a mainstream idea that 
will turn around our cities, free up our resources, and protect 
our other resources.
    I don't mean to use hyperbole, but I'm going to. Other than 
winning the war on terrorism, I don't think there is a more 
important task that the government has than restoring our 
cities. Restoring our cities will cure a host of social 
problems. We can help eliminate poverty, we can make our cities 
more livable. We can bring people back in. You make them more 
livable by increasing tax bases, creating jobs, making them 
safer, making them places where people want to live.
    Mr. Shays. Wouldn't it be great--excuse me, it's a bit of a 
digression--but in a Presidential debate, instead of talking 
about whether a Senator earned three Purple Hearts, or a 
President hasn't properly fulfilled his National Guard duty, 
that you had a public debate about this issue?
    And believing that we can't see success in Iraq, or the 
Iraqis can't see success, it's not lost on me the opportunity 
cost of billions and billions of dollars, and we're really 
debating hundreds of millions, if that.
    Mr. Trilling. You're preaching to the choir, as far as I'm 
concerned, at least to me.
    And, again, I take some missionary zeal in this because 
I've seen projects I've worked on that were laying idle, 
unused, where there was blight in the neighborhood, and having 
turned those around, creating new businesses, including small 
business opportunities, and new jobs, seeing the hope in 
people's eyes. You can't get paid enough for that.
    Mr. Shays. Well, one of the values of this hearing for me 
has been, at this point here, is we are not going to have a 
world to live in if we keep doing what we're doing. And if we 
can tie this effort to a strong environmental movement, it can 
make a world of difference.
    I want to thank you all for your testimony. You're all 
experts on this.
    And if I could, Mr. Chairman, just ask if there is any 
point that needs to be put on the record that we haven't put on 
the record? I find sometimes those last points tend to be 
sometimes the most important.
    Yes.
    Mr. Santy. Thanks for the opportunity. Two points. One is, 
I have some language that might be helpful in meeting the 
eligibility standards of the program. And it's not attached to 
my testimony.
    Mr. Shays. I'd just like to make sure that's specifically 
inserted in the record.
    Mr. Santy. Thank you.
    One issue we haven't raised at all I think deserves mention 
because of its prominence nationally and in Connecticut right 
now and that's the effect of limitations on eminent domain on 
redevelopment.
    We have a number of bills in the Connecticut Legislature 
that seek to take economic development out of the public as a 
definition, which will be in the courts for years.
    Mr. Turner. Before we change the topic, let me just tell 
you, on the Federal level--and you certainly are going to find 
a very sympathetic legislator here on the issues of the need 
for tools for economic development--the bill that passed the 
House, which was highly restrictive in the areas of eminent 
domain, included specific exceptions for brownfields. So, from 
this perspective, at least on the Federal level, eminent 
domain, we will still, even if that less restrictive bill was 
passed, the brownfields were covered.
    Mr. Santy. That's great, and that's the point--just to keep 
an eye on that as these things go through because the reaction, 
particularly on the State level, may limit our ability to do 
brownfields, and eminent domain is really necessary.
    Mr. Shays. Could I just ask, did you want to ask any more 
questions?
    Mr. Turner. You can wrap it up.
    Mr. Shays. I don't want to wrap up, I want you to wrap it 
up. But I just want to make sure, if you would just ask the 
question, because we haven't asked you as many questions as 
you're probably prepared for, I would like to make sure that 
the key points that you want to make are put on the record. So 
maybe with that, we can end up with a commercial.
    Mr. Turner. Aside from Mr. Soler, is there anything that 
you would like to add? You have an opportunity to say it now.
    Ms. Barton. I think the one point I would like to make is 
actually a point that Commissioner McCarthy made, and that is, 
there is a need for us to maximize the realization in the way 
the real world works as we try to do the very, very important 
things that all of you are doing; that is, recognizing that 
things do not proceed in a sequence, and therefore, there is a 
need for flexibility when it comes to when the money is 
available and what it's being used for. It has to be the 
ability, for those who are going to be responsible for 
allocating the moneys, to have those moneys be put to the best 
use for each project.
    But again, as I said, it's not a one-sided control 
unfortunately. So any flexibility that can be built into any of 
the efforts would be helpful.
    Thank you.
    Mr. Carbone. Just the one point that I wish to make is 
that, as you allocate dollars in the future, I know it's 
important to help people, particularly those who might live in 
this area, and earn a livelihood from the particular field, but 
the need to increase the number of people with occupations in 
this field is really great, and the need to do things that 
actually stimulate private investment in for-profit operations 
is equally as great. And to the extent that you can include 
this funding, if possible, to enhance it, I think you will be 
accomplishing something.
    Mr. Turner. One of the things I find most exciting whenever 
we do a hearing on urban economic development issues--CDBG, 
brownfields, public housing--you get together urban people who 
not only have expertise, but they have a love for accomplishing 
the end goal of redeveloping our cities. That camaraderie, that 
body of knowledge that's sharing, is always a valuable 
experience.
    And I want to let you know that's how I feel about your 
Congressman, Chris Shays. That in the House, there aren't that 
many people who would sit around this table, like Mr. Soler's 
associates, who share the end goal and the love of making 
certain that our communities are redeveloped.
    Congressman Shays, thank you again for having me here, and 
thank you for your friendship, and your advocacy on all the 
issues in the House.
    Mr. Soler, as I said to the Mayors, we have a transcript 
that's being made and we will use that testimony when we put 
together the reports.
    And the Mayors, I asked them to give the commercial as to 
why this is important to their communities. They talked about 
issues of taxes, and economic development, and blight. Of 
course, they're talking from a Mayor's perspective.
    And from your perspective as a developer, I would love for 
you to give us your thoughts on why this is important for you 
to do. Not every developer is doing it, so the reasons are not 
so evident, otherwise, the line behind me would be very long.
    Please share with your thoughts as to why it's important 
that you do what you do.
    Mr. Soler. I will tell you that a lot of developers would 
want to do it. They're scared. They are fearful that they're 
going to lose money. They're not in the business of losing 
money, they're in the business of making money. But many 
developers that I talk to want to gravitate into the 
brownfields business. I think that if you had protections in 
place, and you had a little bit more certainty in place, and 
you had these tax incentives, they would get into the business.
    And you're starting to see that happen now, for 
institutional investors. What's happening in Stamford, CT, is 
not being done by a brownfield developer, it's being done by an 
institutional investor, buying what up to now they knew it as 
properties nobody wants. So there are a lot of people who get 
into it.
    I also think that you're seeing a tide change in the 
development community. You're seeing people that are taking a 
little bit more of a responsible role in what will happen with 
buildings in the future.
    Four years ago, when I started this project, and I looked 
at creating green buildings, everybody thought I was nuts, why 
would you want to do that, until last year, when we had an 
energy spike. Then, all of a sudden, everybody thought I was a 
genius.
    The reality is that time is going to take a toll on how we 
develop properties in this country. And if we start at looking 
the way that the Europeans develop it, and other countries 
develop it, and adopt some of those models, we're going to look 
smart, we're going to end up having the future become our 
reality. So that's the reason why I'm doing this.
    Those are the opportunities that are in the marketplace. I 
think taking advantage of those opportunities, because, 
frankly, no one else is looking, and doing it in a very 
creative way, is not only going to be financially rewarding, 
but I think it's the right way of doing it. There are a lot of 
people out there that are following me. We are not the only 
ones doing it.
    Mr. Shays. Before you adjourn, Mr. Chairman, I just want to 
thank you for coming here. I want to thank you for setting up 
two excellent panels.
    I just have so much admiration for what you're doing on 
this issue, and so many more. And it's nice to be part of your 
team in this effort. And so, thank you very much for coming, I 
appreciate it.
    Mr. Turner. I want to thank you again for your preparation 
and for your participation today.
    And we stand adjourned.
    Mr. Shays. And may we thank the transcriber.
    Mr. Turner. Yes.
    [Whereupon, at 3 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9333.061

[GRAPHIC] [TIFF OMITTED] T9333.062

[GRAPHIC] [TIFF OMITTED] T9333.063

[GRAPHIC] [TIFF OMITTED] T9333.064

                                 <all>

</pre></body></html>
